<html>
<title> - [H.A.S.C. No. 112-145]BACK FROM THE BATTLEFIELD: DOD AND VA COLLABORATION TO ASSIST SERVICE MEMBERS RETURNING TO CIVILIAN LIFE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 112-145]
=======================================================================
 
                   BACK FROM THE BATTLEFIELD: DOD AND

 VA COLLABORATION TO ASSIST SERVICE MEMBERS RETURNING TO CIVILIAN LIFE

                               __________

                             JOINT HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES

                          meeting jointly with

                     COMMITTEE ON VETERANS' AFFAIRS

                          [Serial No. 112-71]

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 25, 2012

                                     
[GRAPHIC] [TIFF OMITTED] 





                  U.S. GOVERNMENT PRINTING OFFICE
75-667                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                   HOUSE COMMITTEE ON ARMED SERVICES

                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               CHELLIE PINGREE, Maine
ROB WITTMAN, Virginia                LARRY KISSELL, North Carolina
DUNCAN HUNTER, California            MARTIN HEINRICH, New Mexico
JOHN C. FLEMING, M.D., Louisiana     BILL OWENS, New York
MIKE COFFMAN, Colorado               JOHN R. GARAMENDI, California
TOM ROONEY, Florida                  MARK S. CRITZ, Pennsylvania
TODD RUSSELL PLATTS, Pennsylvania    TIM RYAN, Ohio
SCOTT RIGELL, Virginia               C.A. DUTCH RUPPERSBERGER, Maryland
CHRIS GIBSON, New York               HANK JOHNSON, Georgia
VICKY HARTZLER, Missouri             BETTY SUTTON, Ohio
JOE HECK, Nevada                     COLLEEN HANABUSA, Hawaii
BOBBY SCHILLING, Illinois            KATHLEEN C. HOCHUL, New York
JON RUNYAN, New Jersey               JACKIE SPEIER, California
AUSTIN SCOTT, Georgia                RON BARBER, Arizona
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
               Jeanette James, Professional Staff Member
                 Debra Wada, Professional Staff Member
                      James Weiss, Staff Assistant

                                 ------                                

                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman
CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York
            Helen W. Tolar, Staff Director and Chief Counsel

                                  (II)


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Wednesday, July 25, 2012, Back from the Battlefield: DOD and VA 
  Collaboration to Assist Service Members Returning to Civilian 
  Life...........................................................     1

Appendix:

Wednesday, July 25, 2012.........................................    43
                              ----------                              

                        WEDNESDAY, JULY 25, 2012
 BACK FROM THE BATTLEFIELD: DOD AND VA COLLABORATION TO ASSIST SERVICE 
                   MEMBERS RETURNING TO CIVILIAN LIFE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Filner, Hon. Bob, a Representative from California, Ranking 
  Member, Committee on Veterans' Affairs.........................     5
McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Miller, Hon. Jeff, a Representative from Florida, Chairman, 
  Committee on Veterans' Affairs.................................     3
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     4

                               WITNESSES

Panetta, Hon. Leon E., Secretary of Defense, U.S. Department of 
  Defense........................................................     7
Shinseki, Hon. Eric K., Secretary of Veterans Affairs, U.S. 
  Department of Veterans Affairs.................................    12

                                APPENDIX

Prepared Statements:
    Buerkle, Hon. Ann Marie......................................    54
    McKeon, Hon. Howard P. ``Buck''..............................    47
    Miller, Hon. Jeff............................................    49
    Panetta, Hon. Leon E.........................................    56
    Shinseki, Hon. Eric K........................................    64
    Smith, Hon. Adam.............................................    51

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. McKeon...................................................    84
    Mr. McKeon and Mr. Miller....................................    83

Questions Submitted by Members Post Hearing:

    Mr. Barber...................................................    98
    Ms. Bordallo.................................................    92
    Mr. Cooper...................................................    88
    Mr. Franks...................................................    93
    Mr. Garamendi................................................    97
    Mr. Kissell..................................................    96
    Mr. Langevin.................................................    87
    Mr. Loebsack.................................................    94
    Mr. Schilling................................................    97
 BACK FROM THE BATTLEFIELD: DOD AND VA COLLABORATION TO ASSIST SERVICE 
                   MEMBERS RETURNING TO CIVILIAN LIFE

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Meeting Jointly with Committee on 
            Veterans' Affairs, Washington, DC, Wednesday, 
            July 25, 2012.

    The committees met, pursuant to call, at 10:00 a.m., in 
room 2118, Rayburn House Office Building, Hon. Howard P. 
``Buck'' McKeon (chairman of the Committee on Armed Services) 
presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Good morning. The committee will come to 
order. Good morning, I welcome everyone for this special joint 
hearing with the Committee on Veterans' Affairs. Our focus is 
the collaboration between the Department of Defense [DOD] and 
the Department of Veterans Affairs [VA] to assist service 
members transitioning to civilian life. We have two of 
America's leaders with us, Secretary Panetta and Secretary 
Shinseki, to discuss how we as a Nation can best serve those 
who have served us in uniform.
    I also welcome Chairman Jeff Miller and Ranking Member Bob 
Filner and of course Ranking Member Adam Smith from our 
committee. I thank them all for their significant efforts to 
address a range of transition issues.
    It is no secret that I oppose plans to reduce the size of 
our military, especially when contingency operations are still 
ongoing in Afghanistan. I find it strange that at a time when 
we are still at war, the Department of Defense has announced it 
will actually reduce the size of the Army and Marine Corps. 
Such cuts put strain on our service members and their families.
    Moreover, I have been very vocal regarding the threat 
sequestration poses to the strength and integrity of our 
military. Reductions in end strengths represent additional 
service members that will be asked to leave the military on top 
of the over 175,000 service members that separate every year. I 
will continue to voice my staunch opposition to further cuts to 
the Defense budget which, if they take effect, will not only 
increase the damage to our national security, but also put 
significant strains on the transition system that is already 
working too slowly.
    Today's hearing demonstrates our joint longstanding 
commitment that there be no gap in services and support 
provided to our service members and their families as they 
transition from the Department of Defense to the Department of 
Veterans Affairs.
    The transition that service members experience from active 
service into civilian life must be improved. Veterans of Iraq 
and Afghanistan know that the hardships don't end when they 
leave the war zone. We in Congress are painfully aware that at 
this very moment 26,000 service members are in the midst of the 
disability evaluation process and are forced to wait over 400 
days on average before they can return home to their 
communities.
    To further assist this transition the Congress mandated 
over a decade ago that the DOD and the VA create a joint 
integrated Electronic Health Record [iEHR] to facilitate the 
transfer of service members' personal health information 
between the DOD and the VA health facilities. Unfortunately, 
after continuing delays we are now told that it isn't expected 
to be completed until 2017.
    And finally we hear about the veteran unemployment numbers; 
23.3 percent of veterans between the ages of 18 and 24 are 
unemployed. This highlights the difficulty our younger veterans 
are having to find employment. The idea that our service 
members can go from the front lines to the unemployment lines 
is unacceptable. These men and women whom I have called the 
next greatest generation, and who with their families have 
sacrificed so much for this country, deserve better than to 
have to face the uncertainty of leaving the military in these 
very hard economic times. We must never stop working on their 
behalf, and there is much work still to be done.
    During my meeting with Secretary Shinseki I came away 
impressed by his commitment to improving the transition. He met 
multiple times with Secretary Gates where a joint commitment to 
action was born. That commitment has continued with Secretary 
Panetta. I would like to hear from both of you today on the 
progress that you have made and also what you believe to be the 
critical next steps, and I would like to compliment both of you 
for working so hard together to make these things happen.
    Specifically, I want both of your views on the Transition 
Assistance Program, TAP, which facilitates the transition from 
Active Duty. With regard to objectives, do you both agree on 
TAP's objectives? For example, is TAP designed to prepare 
service members for entry into the job market or is the purpose 
to actually get a service member a job? How do you measure 
whether TAP is achieving its objectives?
    Service members transitioning deserve a government-wide 
approach that includes support from the Departments of Defense, 
Veterans Affairs, Labor, Education, Small Business 
Administration, among others. How is TAP providing such an 
approach?
    The unfortunate consequence of over a decade of war is that 
service members return with serious life-changing injuries. 
Even as the numbers of service members being deployed to combat 
zones goes down, projections are that the numbers of service 
members and veterans needing support will grow substantially 
for the foreseeable future. What are both Departments doing to 
help service members transition as quickly as possible while 
providing this generation of veterans the treatment they need 
to return to their families and live fulfilling, independent 
and productive lives?
    Given the significant evolution of medical science, service 
members now survive horrific injuries that would have been 
fatal even during the first Gulf War. Many of these wounded 
veterans will need long-term, comprehensive services and 
support that can only be provided by the military and by the 
VA. How are the Departments resourced for this long-term 
effort? What are the plans to maintain an equitable joint 
venture in light of the fact the Department of Defense is 
facing another half trillion dollar reduction due to 
sequestration? But the Department of Veterans Affairs is 
exempt.
    I now recognize Chairman Jeff Miller for his opening 
remarks to be followed by Ranking Member Adam Smith and Ranking 
Member Bob Filner for their opening remarks.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 47.]

 STATEMENT OF HON. JEFF MILLER, A REPRESENTATIVE FROM FLORIDA, 
            CHAIRMAN, COMMITTEE ON VETERANS' AFFAIRS

    Mr. Miller. Thank you very much, Mr. Chairman, and to our 
ranking members for helping set up this really truly historic 
meeting today. According to a quick search, it appears that we 
never had these two Secretaries simultaneously appearing before 
our two committees. And I would suggest that we don't wait so 
long before we do it again. And if we are going to ask the VA 
and DOD to work together, I think our committees should be 
doing exactly the same. Secretary Panetta, Secretary Shinseki, 
it is a pleasure to have you both with us here today, and your 
presence I think underscores the goal that we all share that 
our separating service members have a seamless transition from 
their military life to the civilian life.
    Our committee, the Veterans' Affairs Committee, and the 
Subcommittee on Oversight and Investigation have held at least 
13 oversight hearings on transaction related issues. These 
topics include improving the joint disability evaluation system 
that your Departments administer, ensuring that the highest 
quality of health care for the severely wounded who can no 
longer continue on Active Duty and ensuring that our service 
members leaving the military are equipped successfully to enter 
today's workforce.
    We have also focused on the tools that your Departments 
must use effectively to deliver these 21st century services 
such as the electronic health records and other IT [information 
technology] solutions. The testimony that we have received so 
far on matters that we talked about has been somewhat mixed. 
Although we have heard a number of initiative plans and 
processes and improvements from your testimony today, I see 
that it echoes much of those improvements, but I think what we 
all want to see is clear bottom-line results. Several examples 
would include notwithstanding the resources that Congress has 
provided over the last several years to improve Iraq and 
Afghanistan veterans' access to mental health care, many, many 
concerns remain.
    A VA psychologist testified that, ``VA clinicians are 
overrun with veterans in need. Mental health service lines are 
pushing as many veterans into clinicians' schedules as possible 
to meet their performance measures but those veterans are not 
getting effective treatment.''
    Secondly, 5 years ago Secretary Shalala and Senator Dole 
called for the establishment of an effective Federal recovery 
coordinator program for the seriously wounded and their 
families. But rather than a single point of contact they called 
for, VA and DOD created two separate programs. The GAO 
[Government Accountability Office] testified that 
``proliferation of these programs has resulted not only in 
inefficiencies but also confusion for those being served. So 
consequently the intended purpose, which is to better manage 
and facilitate care and service, may actually have had the 
opposite effect.''
    Five years ago Senator Barack Obama said, ``All of us are 
in agreement that we need to make the DOD disability review 
process less complex and better coordinated with the VA 
process.'' However, that process remains slow and continues to 
be complex. GAO has reported that case processing times have 
increased over time and measures of service member satisfaction 
have shown shortcomings.
    Finally, despite repeated assertions about the need for VA 
and DOD to share medical and other information electronically, 
it seems the goalpost continues to move over and over again on 
when this is finally going to take place. GAO says VA and DOD 
still don't fully agree on key planning and operational 
elements that would ensure future success.
    So it is my hope that raising these important issues to 
both of you here today will serve as a benchmark going forward 
by which all of us can hold you or your successors accountable. 
I know that both of you and I sincerely believe that both of 
you are committed to solving these problems. However, if what 
we have been doing isn't working or isn't showing the 
measurable results that we need, then let's work together to 
get things back on track.
    I look forward to your testimony and yield back my time.
    [The prepared statement of Mr. Miller can be found in the 
Appendix on page 49.]
    The Chairman. Thank you. Mr. Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr Chairman. I thank both of our 
chairmen for holding this hearing. The service member 
transition is one of the most important issues that we face I 
believe as a country. We are going to have a large number of 
men and women who have served in the military transitioning 
out. How we take care of them is going to be I think one of the 
ultimate measures of how strong a society we are. I want to 
thank Secretary Panetta and Secretary Shinseki for being here 
today and also for your leadership. Having met with both of 
you, I know how committed you are to this issue and I see it 
with your DOD and Veterans Affairs personnel. They are 
absolutely committed to tackling the problem and making changes 
and making it better. And I think progress has been made in 
terms of health care and in terms of finding jobs we've seen a 
slight down-tick in the unemployment rate of service members. 
But we all know that much more needs to be done. I won't repeat 
everything that the two chairmen said except to say that I 
agree with them on the challenges in this area and how much 
more we need to do and how much better we need to get at 
coordinating that service.
    I think one of the things that really struck me about this 
issue is how so many people in this country want to help. 
Certainly it is true with your two Departments, it is true in 
Congress, but business leaders, community leaders, and we have 
so many people out there coming up with creative ideas every 
day for how to help our service members and their families as 
they transition out of the military. I think one of the great 
challenges is how do you bring those resources together and 
come up with the best practices approach? What works best and 
how can you then use all of that enthusiasm for helping the 
people who have served in the military make the most out of 
those resources and best coordinate it. I think that is a 
challenge you will have. There are folks outside of the 
government who are anxious to help, we need to work them in as 
well. But I agree with both of the chairmen and the challenges 
that they have outlined. I look forward to your testimony and 
the questions and answers about how we can best step up to this 
critically important challenge for our Nation. And with that, I 
yield back.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 51.]
    The Chairman. Thank you. Mr. Filner.

STATEMENT OF HON. BOB FILNER, A REPRESENTATIVE FROM CALIFORNIA, 
         RANKING MEMBER, COMMITTEE ON VETERANS' AFFAIRS

    Mr. Filner. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I mean the picture of our two Secretaries 
sitting there together says it all. I will tell you, Mr. 
Chairman, when I was chairman of the Veterans' Committee I was 
trying to work with our party to have such a joint session and 
we never could accomplish it. So thank you for getting it done. 
We appreciate that. Thank you, Mr. Secretaries. We are going to 
use the word ``transition'' a lot here. I just want to thank--
can I say Leon here? When I first came to Congress the 
Secretary was very helpful in me transitioning from local 
government to the Congress. And I will never forget your 
kindness in mentoring, so thank you, Leon, for all of your work 
over the years with so many people. You have a legacy here of 
course that we will never forget.
    The issues that we have, we have been talking as a Congress 
and with the executive branch for many, many years, decades in 
fact, and we've got to break down the bureaucratic stuff that 
keeps us from having a common, for example, health record 
system. I mean it just, people die because that system is not 
integrated closely enough. And it seems that this is not beyond 
our capacity as a people to get those systems integrated.
    I want to say one word, we want to thank the President for 
announcing this reverse boot camp. I think it is a good start, 
the recognition of that. But I think it is just a start. And I 
have been talking for at least a decade about a deboot camp. I 
don't think, Mr. Secretaries, that you ought to build it on the 
TAP program. If any of you have attended those programs--what 
shall I say kindly--they are a waste of time for most people. 
The only people more bored than the service members actually 
sitting there--they are just thinking about getting out, they 
are not taking into account anything at these lectures--the 
only thing more bored than them is the people giving the 
lectures. It is not a very exciting time and to expand it to 5 
days doesn't seem to get at the heart. I think you've got to 
seriously look at--and I know there is cost factor and your 
predecessors would not look at it seriously--a real deboot 
camp. When we send our young men and women to military, they go 
through 10, 12 weeks to get the military ethos; you need almost 
as much time to transition.
    And first and foremost, which the President's program I 
don't think has, is adequate medical evaluation. You know we 
have thousands, tens of thousands, probably hundreds of 
thousands of young people leaving the military without adequate 
diagnosis of either their mental health or their physical 
health. We know PTSD [post-traumatic stress disorder] and TBI 
[traumatic brain injury] could be undiagnosed, they are 
unrecognized, people are in self-denial. And so they will 
transition and then have enormous problems, as you know, 
suicide, homelessness, whatever. We can stop that with an 
adequate diagnosis.
    If you did it in a setting where there was a transitional 
setting on a campus or, I don't know, some base somewhere with 
their families, with their company of soldiers, they get the 
support they need, that they lack when they do a sudden 
transition. Their families are with them, that is important. 
You can do their medical stuff, you do the job counseling, you 
do the educational counseling but in a relaxed atmosphere where 
everybody is paying attention. It would be part of Active Duty, 
8, 10, 12 weeks, whatever you think you can afford. But I tell 
you 5 days is a start, it is not going to do it. As you know, 
you know better than all of us, the rate of suicides, the 
homelessness, the convictions for crimes of recent veterans are 
symptoms of an incredible problem. It is an epidemic and we are 
not focusing on--we really don't want to know about it, it 
seems to me.
    And yet if you look at a reverse or deboot camp, and take 
it seriously, and deal with the medical and psychological and 
economic and educational issues over a period of time, I think 
you can greatly reduce this blot on our record after these 
young men and women serve so professionally in Iraq and 
Afghanistan or wherever they happen to serve and then come home 
and have domestic violence, and suicide, and homelessness, and 
joblessness.
    We are not doing our country a service. And I think you 
have the leadership skills, you have the ability, you work well 
together that we can get this blot off of our country's record 
and really do something seriously.
    So thank you all for being here. We thank you for your 
personal cooperation, your personal leadership. You can really 
change the two biggest bureaucracies we have in the Nation. You 
two can change them and we look forward to working with you to 
do it. Thank you.
    The Chairman. Thank you. Given the interest in the hearing 
today and it is a joint and that fact that it is a joint 
hearing and, after consultation with Mr. Smith, Mr. Miller, and 
Mr. Filner, I ask unanimous consent that each member shall have 
not more than 2 minutes to question the panel of witnesses, 
starting with me. Hearing no objection, so ordered.
    In addition, we will follow our committee rules and 
recognize members who arrived before the gavel in the order of 
seniority, alternating between Armed Services Committee 
majority and minority members followed by Veterans' Affairs 
majority and minority members.
    Lastly, I want to give special recognition to one of our 
committee staff, John Johnson, better known as JJ, who is 
responsible for artfully configuring this hearing room that 
normally holds 64 members, but today had been expanded to 
comfortably seat 82. You have my personal thanks, JJ.
    Now, Mr. Secretary, Secretary Panetta, if you would please 
begin.

 STATEMENT OF HON. LEON E. PANETTA, SECRETARY OF DEFENSE, U.S. 
                     DEPARTMENT OF DEFENSE

    Secretary Panetta. Thank you, Mr. Chairman. I would ask 
that my full statement be made part of the record, and I will 
try to summarize it if I could.
    The Chairman. Both of your statements will be fully entered 
into the record. Hearing no objection, so ordered.
    Secretary Panetta. Thank you very much, Chairman McKeon, 
Chairman Miller, Ranking Member Smith, and Ranking Member 
Filner, dear former colleagues of mine, and I appreciate the 
opportunity to be here, and I also want to pay my respects to 
the members of both committees. This is a unique event, it is 
an important event. And first and foremost I want to thank all 
of the members of both the Armed Services and Veterans' 
Committee for the support that you provide the Department of 
Defense, our men and women in uniform and our veterans. We 
could simply not do the work that needs to be done in 
protecting this country and in serving those that are warriors 
and their families. We just could not do it without the 
partnership that we have with all of you. And for that reason 
let me just express my personal appreciation to all of you for 
your dedication and for your commitment to those areas.
    I also want to thank you for the opportunity to appear this 
morning alongside Secretary Shinseki. He is a great friend, a 
great public servant, a great military leader and a great 
friend to me and to our Nation's veterans. I appreciate the 
opportunity to appear alongside of him.
    I am pleased to have this chance to discuss the ways that 
the Department of Defense and the Department of Veterans 
Affairs are working together to try to meet the needs of our 
service members, our veterans, and their families. This hearing 
comes at a very important time for our Nation and for 
collaboration between our two Departments. DOD and VA are in 
the process of building an integrated military and veterans 
support system. It is something that should have been done a 
long time ago, but we are in the process of trying to make that 
happen, and develop a support system that is fundamentally 
different and a lot more robust than it has been in the past.
    Today, after a decade of war, a new generation of service 
members, of veterans is coming home, our Nation has made a 
lifetime commitment to them for their service and for their 
sacrifice, for their willingness to put their lives on the line 
for this country. These men and women have shouldered a very 
heavy burden. They have been deployed, as you know, time and 
time and time again. They fought battles in Iraq; they fought 
battles in Afghanistan; they have been targeted by terrorists 
and by IEDs [improvised explosive devices]; they have been 
deployed from Kuwait to South Korea, from the Pacific to the 
Middle East. Many are dealing with serious wounds, as well as 
with complex and difficult problems, both seen and unseen. They 
have fought and many have died to protect this country and we 
need to fight to protect them. We owe it to those returning 
service members and to the veterans to provide them with a 
seamless support system so that they can put their lives back 
together, so that they can pursue their goals, so that they can 
not only go back to their communities but be able to give back 
to their communities and to help strengthen our Nation in many 
ways.
    None of this, none of this is easy. It takes tremendous 
commitment on the part of all Americans, those in government, 
those in the military, it takes tremendous commitment on the 
part of those in the private sector, our business leaders and, 
frankly, all citizens across our country.
    There is no doubt that DOD and VA are working more closely 
together than we have before, but frankly we have much more to 
do to try to reach a level of cooperation to better meet the 
needs of those who have served our Nation in uniform, 
especially our Wounded Warriors.
    Since I became Secretary a little over a year ago, 
Secretary Shinseki and I have met on a regular basis in order 
to personally guide efforts to share resources and expand 
cooperation between our Departments. Partnership between our 
Departments extends to all levels led by a joint committee 
cochaired by the Under Secretary of Defense for Personnel and 
Readiness and the Deputy Secretary of Veterans Affairs. Senior 
military leaders have been deeply committed to this effort. 
This is about the care of their troops, but it is also about 
recruiting and retaining the very best military force in the 
world. When it comes down to it, caring for those who have 
served and their families is not only a moral imperative, it is 
a national security imperative as well.
    For those who have fought for their Nation we need to 
protect their care and their benefits, but we also need to 
protect their integrity and their honor. It is for that reason 
that before I discuss the specifics about DOD and VA 
collaboration I want to announce an important step that my 
Department is taking in order to help maintain the integrity of 
the awards and honors that are earned by our service members 
and their veterans. You are all aware of the Supreme Court 
decision that determined that free speech allows someone to lie 
about military awards and honors. Free speech is one thing, but 
dishonoring those who have been honored on the battlefield is 
something else. For that reason, today we are posting a new 
page on the Defense Department's Web site that will list those 
service members and veterans who have earned our Nation's 
highest military awards for valor. Initially the Web site will 
list the names of those who have earned the Medal of Honor 
since 9/11. But in the near term it will include the recipients 
of the services Crosses and the Silver Star since 9/11. We will 
look at expanding that information available on the Web site 
over time. This effort will help raise public awareness about 
our Nation's heroes and help deter those who might falsely 
claim military honors, which I know has been a source of great 
concern for many veterans and members of these committees and 
Members of the Congress. I want to thank you for your concerns 
and for your leadership on this issue, and our hope is that 
this will help protect the honor of those who serve the United 
States in battle.
    Now let me discuss the five priority areas that DOD and VA 
are trying to work on to enhance collaboration. The first is 
this transition program, Transition GPS program. At the 
Department of Defense our goal is to provide a comprehensive 
Transition Assistance Program that prepares those who are 
leaving the service for the next step, whether that is pursuing 
additional education, whether it is trying to find a job in the 
public sector or the private sector, or whether it is starting 
their own business.
    On Monday the President announced the new Transition GPS 
program that will extend transition preparation through the 
entire span of each service member's military career. The 
program will ensure that every service member develops their 
own individual transition plan, meets new career readiness 
standards, and is prepared to apply their valuable military 
experience however and wherever they choose.
    Second area that we focused on is trying to integrate the 
disability evaluation system. We have overhauled the legacy 
disability evaluation system and trying to make improvements 
with regards to developing a new system. In the past, as you 
know, service members with medical conditions preventing them 
from doing their military jobs had to navigate separate 
disability evaluation systems at both DOD and VA. We have 
replaced that legacy system with a single Integrated Disability 
Evaluation System [IDES] that enables our Departments to work 
in tandem. Under the new system currently in use, service 
members and veterans have to deal with fewer layers of 
bureaucracy, and they are able to receive VA disability 
compensation sooner after separating from the military.
    But let's understand as we try to do this, this is a tough 
challenge to try to make this work in a way that can respond to 
our veterans effectively. After all, veterans have rights, they 
have the right to ensure that their claims are carefully 
adjudicated, but at the same time we need to expedite the 
process and to ensure that as we do that we protect their 
benefits, and that is what we are trying do with this system.
    The third area is to try to integrate, as was pointed out, 
a new electronic health record system. We are working on a 
major initiative to try to do that. For too long efforts to 
achieve a seamless transition between our health care systems 
have been hamstrung by separate legacy health record systems. 
In response to challenge that was issued by the President and 
frankly Presidents in the past who have tried to address this 
issue, DOD and VA is finally working steadily to build an 
integrated Electronic Health Record system. When operational 
that system will be the single source for service members and 
veterans to access their medical history and for clinicians to 
use that history at any DOD and VA facility. Again, this is not 
easy, and so the way we are approaching it is to try to see if 
we can complete this process at two places, San Antonio and 
Hampton Roads, and then try to expand it to every other 
hospital. It is tough, but if we can achieve this, it would be 
a very significant achievement that I think could be a model 
not only for the hospitals that we run, but for hospitals in 
the private sector as well.
    Fourthly, we need greater collaboration on mental and 
behavioral health. Beyond these specific initiatives that I 
mentioned, we are trying to focus on enhancing collaboration in 
areas that involve some of the toughest challenges we face now 
related to mental and behavioral health. Post-traumatic stress 
has emerged as a signature unseen wound of this last decade of 
war. Its impact will be felt for decades to come and both the 
DOD and VA must therefore improve our ability to identify and 
treat this condition, as well as all mental and behavioral 
health conditions, and to better equip our system to deal with 
the unique challenges these conditions can present. For 
example, I have been very concerned about reports of problems 
with modifying diagnosis for post-traumatic stress in the 
military disability evaluation system. Many of these issues 
were brought to my attention by Members of Congress, and I 
appreciate their doing that, particularly the Senate Veterans' 
Affairs Committee chairman, Patty Murray, who addressed this 
issue because it happened in her own State in a particular way. 
To address these concerns I have directed a review across all 
of the uniformed services. This review led by the Under 
Secretary of Defense for Personnel and Readiness Erin Conaton 
will help ensure that we are delivering on our commitment to 
care for our service members. The review will be analytically 
sound, it will be action oriented, and it will provide 
hopefully the least disruptive impact to behavioral health 
services for service members. The effort here is to determine 
where those diagnoses take place, why they were downgraded 
downward, what took place so that we know exactly what has 
happened. I hope that the entire review will be completed 
within approximately 18 months.
    The last area is an area that has really concerned me, 
which is the area of trying to prevent military suicides. We 
have strongly focused on doing what we can to try to deal with 
this issue, which I have said is one of the most frustrating 
problems that I have come across as Secretary of Defense. 
Despite increased efforts and attention by both DOD and VA, the 
suicide trends among service members and veterans continues to 
move in a very troubling and tragic direction. And part of it 
is reflected in larger society. The fact is numbers are 
increasing now within the military. In close cooperation with 
the VA, DOD is taking aggressive steps to try to address this 
issue, including promoting a culture to try to get people to 
seek help, seek the kind of help that they need to improve 
access to mental and behavioral health care, to emphasize 
mental fitness and to work to better understand the issue of 
suicide with the help of other agencies, including the VA. One 
of the things I am trying to stress is that we have got to 
improve the ability of leadership within the military to see 
these issues, to see them coming and to do something to try to 
prevent it from happening.
    Our efforts to deliver the best possible services depend on 
the dedication of our DOD and VA professionals who work 
extremely hard every day on behalf of those who have served in 
uniform, and I extend my thanks to all who help support our men 
and women in uniform today, to our veterans and to our 
families.
    Let me just say we are one family, we have to be one family 
at the Department of Defense and the Department of Veterans 
Affairs, a family that supports one another and all those who 
have answered the call to defend our country. Together we will 
do everything possible to ensure that the bond between our two 
Departments and between our country and those who have defended 
it only grows stronger in the future.
    Let me also say this. As a former Congressman, now as 
Secretary of Defense and someone who has spent over 40 years 
involved in government in some capacity or another, I am well 
aware that too often the very best intentions, very best 
intentions for caring for our veterans can get trapped in 
bureaucratic infighting, it gets trapped by conflicting rules 
and regulations, it gets trapped by frustrating levels of 
responsibility. This cannot be an excuse for not dealing with 
these issues. It should be a challenge for both the VA and DOD, 
for the Congress and for the administration to try to meet that 
challenge together. Our warriors are trained not to fail on the 
battlefield. We must be committed not to fail them on the home 
front. I realize that there have been a lot of good words and a 
lot of good will and a lot of good intentions, but I can assure 
you that my interest is in results, not words. I am grateful 
for the support of the Congress, particularly these two 
committees, and I thank you and look forward to your questions.
    [The prepared statement of Secretary Panetta can be found 
in the Appendix on page 56.]
    The Chairman. Thank you, Mr. Secretary. You know there have 
been comments made about how unique this is to have this joint 
hearing between these two committees. It resulted from Chairman 
Miller coming to me with the idea and I want to thank him for 
that, and I think it also happened because we have two such 
outstanding Secretaries, both of whom are veterans, both of 
whom have devoted their life to service of this country. 
Secretary Panetta, many years in Congress, was here when I 
first came here and a couple of others of us that are still 
here, Mr. Barton and Mr. Filner. We are the old, old people on 
this committee now. But you were taken from our midst over to 
serve the President as Director of OMB [Office of Management 
and Budget] and then as his Chief of Staff, and then later was 
Director of Central Intelligence Agency and now as Secretary of 
Defense. I think that is a lifetime to be commended.
    And Secretary Shinseki, starting with entrance into the 
United States Military Academy, lifetime of service in the 
Army, culminating as Chief of Staff of the Army. No one could 
have a better career, leading troops in battle and leading the 
entire Army in the start of this war against terrorism. Thank 
you both for your service.
    Mr. Secretary.

   STATEMENT OF HON. ERIC K. SHINSEKI, SECRETARY OF VETERANS 
          AFFAIRS, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Secretary Shinseki. Thank you, Mr. Chairman. Chairman 
McKeon, Chairman Miller, Ranking Member Smith, Ranking Member 
Filner, other distinguished members of both committees, the 
House Armed Services and House Veterans' Affairs Committees, 
thank you for your steadfast support of service members and 
veterans and for this opportunity to testify before you.
    I am honored to be here with my friend as well, Secretary 
Leon Panetta. His leadership and close partnership on behalf of 
those who wear and have worn the uniforms of our Nation has 
been monumental.
    I would also like to acknowledge I believe we have here and 
other places veterans service organizations [VSOs] and veterans 
who are here today. I acknowledge them because with the VSOs, 
their insights have been helpful in developing, resourcing, and 
improving the programs that we overwatch in the Department of 
Veterans Affairs.
    I have said it often enough and I will say it one more 
time, little of what we do in VA originates in VA. Much of what 
we work on originates in DOD. And so what this means is that we 
in VA must be aware, must be agile and then must be fully 
capable of caring for those who have, in Lincoln's words, borne 
the battle. As a footnote, we still today in VA care for two 
children of Civil War veterans. The promises of President 
Abraham Lincoln are being delivered today by President Barack 
Obama, this Congress, and the VA. And 100 years from now we 
will still be fulfilling our commitment to the current 
generation of veterans, their families, and our survivors.
    History also shows, and this is VA's piece of history, also 
shows that our requirements in VA continue to grow for about a 
decade and maybe sometimes a little more after the last 
combatant comes back from operation. And so in this case about 
a decade or more after the last combatant leaves Afghanistan, 
VA's requirements will continue to grow; the operation will be 
over and budget will begin to reflect that, but at VA our 
requirements will still be growing.
    So for us it is important that we spend the time now to 
better anticipate their needs for care, for benefits and for a 
successful transition to civilian life for this current 
generation, without losing sight of the needs of previous 
generations that we also care for.
    Collaboration and cooperation between VA and DOD have never 
been more important and I think for the next two decades it 
will be entirely important because this will be in large 
measure the work of the Nation and focusing on how we care for 
the less than 1 percent of Americans who serve in uniform today 
and provide for us this way of life.
    Most significantly, we are looking initially here at four 
areas. Three of those areas will match up with what Secretary 
Panetta just provided. That doesn't mean that in his five and 
my four we are disconnected, but we describe them just a little 
bit differently.
    The integrated Electronic Health Record, the iEHR, which 
you have remarked has been in the process of discussion for 10 
years now, I think both Secretary Panetta and I have agreed on 
what that will be and we are moving towards a solution.
    The second point, more comprehensive sharing of data 
through a virtual lifetime electronic record, of which 
integrated Electronic Health Record is a key component.
    The third area of focus, the Integrated Disability 
Evaluation System, which is primarily a DOD enterprise with 
significant VA support to ensure an efficient process.
    And the fourth of our VA's areas of focus, the President's 
initiative to redesign the transition process and the 
implementation of the VOW [Veterans Opportunity to Work] to 
Hire Heroes Act.
    My testimony submitted to the committee expands on each of 
these areas in some detail, and I thank the chairman for 
accepting that written testimony into the record and I won't go 
into them in detail at this time.
    Well, let me briefly emphasize that it is especially 
important that we assure the greatest collaboration between VA 
and DOD in that critical phase before service members leave the 
military. We simply must transition them better. And I speak as 
one who has watched that process from a different vantage point 
over time. We do this best with warm handoffs between the 
Departments. That is key to assuring the success of 
transitioning service members back to their communities in 
productive ways. But it is also key in preventing the downward 
spiral that some face in being challenged. Transitioning 
doesn't work quite as well for them and in some cases 
homelessness and sometimes suicide are what we have to deal 
with.
    So I echo Secretary Panetta's comments. While we are 
pleased with the progress made to date on critical issues 
common to both VA and DOD, we know we have a responsibility to 
better harmonize our two large Departments in ways to better 
serve service members, families, veterans, and our survivors. 
Their well-being is the strongest justification of why we 
should be working together more closely and more 
collaboratively and we are today. There is more important work 
to be done, and I am proud to move forward with Secretary 
Panetta to make the most progress possible in our time on 
behalf of those who wear and have worn the uniforms of our 
Nation.
    And with that, Mr. Chairman, thank you and to the members 
of this committee for your unwavering support of our efforts, 
and I look forward to your questions.
    [The prepared statement of Secretary Shinseki can be found 
in the Appendix on page 64.]
    The Chairman. Thank you very much. I ask unanimous consent 
to include the record of all member statements into the record. 
Without objection, so ordered. We have already agreed that we 
will have about 2-minute questions, so I would encourage 
members to make their questions short so that we can have the 
answers complete, and we will start with me.
    As I have already said, we know that there is high 
unemployment among our veterans, our young veterans. And we 
know with the $487.0 billion cut in defense we will have 
100,000 leaving the military. We will have another 100,000 if 
the sequestration takes effect.
    What plans do we have to ensure that these service members 
will not go from the front lines to the unemployment lines? And 
how do you see potential reduction in the defense workforce 
resulting from the sequestration? What effect will that have on 
what will you be able to do to try to move them into some 
meaningful employment, Mr. Secretary?
    Secretary Panetta. Well, I sure as hell hope that 
sequestration doesn't happen.
    The Chairman. I am with you.
    Secretary Panetta. It would be, as I have said time and 
time again, a disaster in terms of the Defense Department as 
far as our budget is concerned and as far as our ability to 
respond to the threats that are out there and it would have a 
huge impact. It doubles the cuts in the military. It would 
obviously add another 100,000 that would have to be reduced, 
and the impact of that on top of the reductions that are 
currently going to take place would place a huge burden on the 
systems to be able to respond to that. I think it would be near 
impossible to try to do the kind of work that we are trying to 
do and make it work effectively.
    I think we can handle what we have proposed in our budget 
and the drawdown numbers that are coming now. We have tried to 
do this pursuant to a rational strategy over these next 5 
years. And I think the systems we are working on and what we 
are trying to put in place I am confident can respond to that. 
But if sequester should happen and if an additional burden is 
suddenly put on top of it, I think it could really strain the 
system.
    The Chairman. Mr. Secretary, could you please give us that 
input for the record?
    Secretary Panetta. Absolutely.
    [The information referred to can be found in the Appendix 
on page 84.]
    The Chairman. In keeping with it. My time has expired. Mr. 
Miller.
    Mr. Miller. Both Secretaries, in 1961 John F. Kennedy said 
we would put a man on the Moon, 8 years later America was 
there. We are talking about an integrated Electronic Health 
Record by 2017. Why could we put a man on the Moon in 8 years 
and we are not starting from ground zero with electronic health 
record. Why is it taking so long? Because it so vital 
especially, Secretary Shinseki, to solving the backlog issue 
that exists out there today in regards to disability claims.
    Secretary Shinseki. Mr. Chairman, I can't account for the 
previous 10 years. I do know there is a history here. But let 
me just suggest that two large Departments, each having their 
own electronic health record, which happened to be two very 
good, maybe the two best, electronic health records in the 
country, and trying to bring that culture together to say we 
are going to have one, and it is entirely possible. And I agree 
with you it is not technology, it is leadership here. And 
between Secretary Panetta and I, we have in the last year met 
four times. We are going to meet again in September. We are 
here today testifying together. I think this is a great signal 
to both of our Departments. Prior to that I recall meeting with 
Secretary Gates four or five times. So in 17 months, with two 
Secretaries of these two large Departments have sat side by 
side in direct communication on issues like this, with the 
integrated Electronic Health Record being the primary topic of 
discussion. It has taken us 17 months to get to an agreement 
that both Secretary Panetta and I signed that describes the way 
forward. And the way forward for us is a single joint common 
integrated Electronic Health Record. Each of those words means 
something. But key here is an agreement that it will be open in 
architecture, nonproprietary in design. That is a significant 
change from previous discussions which were wrapped around 
which proprietary contractor were we going to be interested in 
in establishing an arrangement with. I believe that was part of 
the challenge. The fact that we have agreed on a concept I 
think is groundbreaking here, and both Secretary Panetta and I 
have agreed to move forward on this.
    The Chairman. Thank you very much. The gentleman's time has 
expired. Again if you could complete the record on those 
questions that would be good.
    Mr. Smith.
    [The information referred to can be found in the Appendix 
on page 83.]
    Mr. Smith. Thank you, Mr Chairman. I have a question about 
the TAP program, following up on some of the comments Mr. 
Filner made. Exit interviews are notoriously difficult to get 
people interested in and I think the problem is service members 
are out, they are moving on. I met with some of your folks from 
both your offices that showed me how they had refined the 
program; they used to have a book this big, now they have a 
book this big.
    The bottom line is what are your thoughts on what you can 
do to get the service members to pay attention to the two or 
three most important things in that transition. It strikes me 
like we are overwhelming them with information, eyes just glaze 
over. If you had to explain it to them in 15 minutes, what are 
the critical pieces of information that you want to give them? 
How can we make that work better?
    Secretary Panetta. I will yield to Secretary Shinseki as 
well on this. You know, I remember when I got out of the 
service I couldn't wait to get the hell out of there and I 
didn't really want to spend a lot of time having people tell me 
what I was or was not going to do. In this instance I think the 
best way to try to bring these opportunities to attention of 
members is the counselors. We are assigning individual 
counselors as part of the transition program. They are going to 
sit down individually with them. I think that is the best way 
to get their attention and try to get them moving with regards 
to the potential benefits that are available to them.
    Secretary Shinseki. Just very quickly, I would echo 
Secretary Panetta here. I know that when I got ready to get out 
of the military I couldn't wait to get the hell out of there 
either. I would just say if we look at this as a transition 
assistance program, and the focus is on assistance, I think we 
come at it with a different attitude. If we look at this as an 
education responsibility of preparing folks for at least the 
next phase of their lives to make the right decisions, whether 
it is education, whether it is a work choice and certainly from 
the VA's point of view we are entirely interested in getting as 
many departing service members enrolled with us. Whether or not 
they have a requirement for health care today, having them 
enrolled 5 or 10 years down the road when issues crop up we 
have the evidence necessary to be able to deal with it. So we 
need to look at this as more than just assistance, but this is 
really preparing them, making them career-ready for the next 
phase of their lives.
    Mr. Smith. Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Filner.
    Mr. Filner. You know, in a democracy where you need 
obviously the support and vote of people to go to war, the cost 
of war is a pretty important item to understand. And treating 
our veterans is obviously a part of the cost of war or should 
be considered that. I have tried on several occasions to add an 
amendment to any war appropriations, I don't know 15 to 20 
percent surcharge, because that is the difference in your 
budgets for veterans. And of course since we have been 
borrowing money for war and nobody wants to borrow the money 
for veterans. So it is not looked on kindly.
    But part of the cost of war, you know, we have the 
statistics, so about 6,000 killed in action--I am sorry, 5,000 
killed in action since 9/11, and almost 50,000 wounded. And 
yet, those who have showed up at the VA for help, and I know 
there are different definitions and different circumstances, I 
think it is close to, or could be over a million. Why is there 
such a disparity between--and it is important for the public to 
understand, what is the cost of war? How do you account for 1 
million veterans seeking help for problems in war, and only 
50,000 considered casualties?
    Mr. Panetta, I will go to you first. Since you know how to 
manipulate the 2 minutes, you are looking to him, I know, so 
you don't have to answer.
    Secretary Panetta. No. I mean, it clearly is the impact of 
war over the last 10 years and how it has affected those who 
have served. And when they do return, when they come back, the 
reality is that, you know, that not all of them, not all of 
them are getting the kind of care and benefits that they should 
get. And it is our responsibility to try to respond to those 
needs as they return.
    Look, this system is going to be overwhelmed. I mean, you 
know, let's not kid anybody. We are looking at a system that is 
already overwhelmed. The likelihood is as we draw down further 
troops and, you know, over these next 5 years, assuming 
sequester doesn't happen, we are still going to--you know, we 
are going to be adding another 100,000 per year. And the 
ability to be able to respond to that in a way that effectively 
deals with the health care issues, with the benefits issues, 
with all of the other challenges, that is not going to be an 
easy challenge. And you talk about the cost of war, this is 
inherently part of the cost of war. It is not just dealing with 
the fighting, it is also dealing with the veterans who return. 
And that is going to be a big ticket item if we are going to do 
this right.
    Mr. Filner. I just hope you look at that boot camp idea as 
a way to really get at that issue.
    The Chairman. Thank you. Mr. Bartlett.
    Mr. Bartlett. Thank you. By almost every account, we are 
failing our veterans. More of them are killing themselves than 
are killed by the enemy in Afghanistan, and the suicide rate is 
increasing. Homelessness is approaching the percentage of 
Vietnam veterans, and that is increasing. Unemployment is more 
than twice the unemployment percentage of the general 
population. The in-service disability evaluation delays are 
unacceptable. And after they are out, it may take more than a 
year. They are unemployable because of a disability, it may 
take more than a year for them to get that disability.
    Secretary Panetta, you mentioned that you hope that an 18-
month review could be completed on time. I would suggest, sir, 
that that does not reflect the sense of urgency that this 
challenge requires. What do we need to do in the Congress to 
address this problem?
    Secretary Panetta. You know, I think that the one thing I 
have seen is that all of us share the same concern with regards 
to our ability to respond to these issues. The challenge is 
that as we try to make these systems work, there is a lot of 
built in resistance to adapting and changing the way we do 
things. And to the extent that we can work together, to try to 
make sure that we push for these changes to take place, and do 
it in a way that effectively responds to the challenges, that 
is something I think both the Congress as well as the 
administration have to push.
    We cannot accept the old way of doing things. Things are 
going to have to change. Things are going to have to be 
modified. People are going to have to respond differently. If 
we expect the same old responses to the problems we are having, 
then we are going to have the same old problems. We have got to 
change the way people respond to these issues.
    The Chairman. Thank you. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. And thank you, 
Secretaries, for being here. First of all, I wanted to thank 
both of you because you have put your personal leadership in 
areas that have never been done before. The issue of women have 
been very important to both of you in the military, both in 
terms of sexual harassment and attacks and those kinds of 
things.
    Secretary Panetta, you have been a stalwart there. And 
Secretary Shinseki, your leadership in prioritizing 
homelessness among veterans, especially among women veterans, 
is very much appreciated. I can tell you because veterans very 
much appreciate those priorities and your personal leadership 
in that. So I know both of you face immense challenges. But 
reflecting on what Chairman Miller said, I hope we continue to 
do these kinds of joint hearings because this truly is an 
important--I think one of the most important things that both 
of these committees can focus on. Just echoing what my 
chairman, Chairman Bartlett said, can each of you comment 
briefly on where we can be most helpful in terms as a Congress, 
especially from these two committees?
    Secretary Shinseki. I can speak on the VA piece of this. 
Actually, the Congress has already provided some significant 
assistance to VA. I would recall in 2008 and 2009, our budgets 
were enhanced by Congress. Since then, you have provided us 
advanced appropriations. Now, not all agree that it was a good 
move, but for VA, it provided us an opportunity to have a 2-
year look at our budgets. And what it assured is that for the 
health care piece of our budget, every year on 1 October, 
whether or not there is a continuing resolution, we are able to 
fund our health care requirements so that veterans--there isn't 
a gap in care for veterans. In those ways, meaningful support 
has been provided.
    I would also say that we are dealing with issues that grow 
over time, and some of them very quickly, mental health, PTSD. 
The budgeting process is based on knowing requirements well 
out, and methodically reacting to growth in trend. When you 
have large growth in a short period of time, the budget process 
is not quite as agile, and it is a bit reactive. And so our 
efforts to try to harmonize, the reason that we are here is so 
that VA has some good ideas on what to expect and be able to 
put that into our budgeting process.
    The Chairman. Thank you. Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much. Thank you, Secretary Panetta and Secretary Shinseki. 
You both mentioned in your testimony the prevalence of PTSD and 
TBI. And I believe we certainly need more research to establish 
better diagnostic tools and treatments. Through what channels 
are the DOD, VA, and the private sector sharing the research 
findings and collaborating on the direction of future research?
    Secretary Shinseki. I would just offer in 2009, the DOD and 
VA held its first mental health summit, a joint effort to bring 
our mental health programs to the same table and have a 
discussion. Twenty-eight strategic findings that came out of 
that, those findings we continue to execute today. While it was 
a broad look, inside that discussion were issues on PTSD, TBI. 
We spent about $30 million in the VA budget on research for 
PTSD. We learned a lot from DOD because they have extensive 
experience in this area in terms of diagnosis and dealing with 
PTSD, with formations, with people in formations, in combat, 
going back to combat.
    So there is much that we learn from our collaboration with 
DOD, through our research. More to be done, to be sure.
    Secretary Panetta. Let me add, what we try to do is to do 
mental health assessments both before and after deployments, so 
that we can identify and try to treat somebody who might have a 
problem, specifically with a PTSD. We have done about 600,000 
of these assessments. Our greatest limitation, our greatest 
limitation is the number of care providers is simply not 
sufficient for the demand. And we are competing with VA and 
with private health care systems to hire these people. But that 
is a real--that is an area of tremendous need in order to 
address the amount of problems we are facing.
    The Chairman. Thank you. Mr. Michaud.
    Mr. Michaud. Thank you very much. I want to thank you both 
for your service and for your both being here this morning. A 
quick question, and I want to read from a veterans service 
organization letter that they actually sent to Senator Webb 
just last week, and just part of it that says: ``The only 
branch of the military to show a marked improvement decreasing 
the number of persons taking their own lives is the United 
States Marines. They should also be praised for their active 
leadership from the very top in addressing the problem and 
implementing the solutions. The remaining services have yet to 
be motivated to take any substantive action.''
    Secretary Panetta, I have been to Iraq and Afghanistan 
several times, and I looked the generals in the eye and I asked 
them what are they doing personally to help destigmatize TBI, 
PTSD. And the second question is do they need any help? I get 
the same answer over there as I do here in DC, everything is 
okay. We have all the resources we need, we don't need any 
help. But the interesting thing is someone of much lesser rank 
came up to me after I asked the general that question outside 
and said we need a lot more help. And he suggested I talk to 
the clergy to find out what they are seeing happening.
    And I did, that trip, and every trip since then. And I am 
finding that our service members are not getting the help that 
they need. And my questions, particularly after looking at this 
letter that was sent to Senator Webb, it appears the Marines 
are doing a good job. So why is it so different between the 
Marines, the Army, and other branches? And can you address 
that?
    Secretary Panetta. You know, obviously there is no silver 
bullet here, I wish there were, to try to deal with suicide 
prevention. We have a new Suicide Prevention Office that is 
trying to look at programs to try to address this terrible 
epidemic. I mean, we are looking just--if you look at the 
numbers, recent totals are, we have got about 104 confirmed, 
and 102 pending investigations in 2012. The total is as high as 
206, almost one a day that we are seeing. That is an epidemic. 
Something is wrong.
    I think one of the areas--I mean, look, part of this is 
people are inhibited because they don't want to get the care 
that they probably need. So that is part of the problem is 
trying to get the help that is necessary. Two, to give them 
access to the kind of care that they need. But three, and 
again, I stress this because I see this in a number of other 
areas dealing with good discipline and good order and trying to 
make sure that our troops are responding to the challenges, it 
is the leadership in the field, it is the platoon commander, it 
is the platoon sergeant, it is the company commander, it is the 
company sergeant. The ability to look at their people to see 
these problems, to get ahead of it, and to be able to ensure 
that when you spot the problems, you are moving that individual 
to the kind of assistance that they need in order to prevent 
it. The Marines stay in close touch with their people. That is 
probably one of the reasons that, you know, the Marines are 
doing a good job. But what we are stressing in the other 
services is to try to develop that training of the command so 
that they, too, are able to respond to these kinds of 
challenges.
    The Chairman. Thank you. Mr. Thornberry.
    Mr. Thornberry. Secretary Panetta, there was a cover story 
on military suicides in Time Magazine within the past couple 
weeks. And some statistics really jumped out at me. One fact 
they said is that 33 percent of military suicides had never 
deployed overseas at all, and 43 percent had been deployed 
once. That is 76 percent, if you add it together. I am 
wondering, number one, are those statistics accurate? And 
number two, what does that tell us about the problem if a third 
of all the suicides--we are focused so much on the PTSD and so 
forth, if they have never deployed at all and a third of the 
suicides, maybe we are not looking at all the factors.
    Secretary Panetta. Those numbers are accurate as far as we 
know. And I think what you are seeing is that it reflects the 
larger problem in the society. Because the fact is that 
suicides are on the increase in the rest of society as well. 
So, problems with drinking, problems with finances, problems 
within the family, problems, you know, of trying to deal with 
conflicts that they are confronting, problems of dealing with 
just the general pressures that we are seeing in a society that 
is dealing, obviously, with economic pressures, at the same 
time is dealing with social pressures.
    All of that is impacting on families. And that is true in 
the military as well. And that is why we are seeing this occur 
not just from those that are deployed to the battlefield, but 
we are seeing it with regards to families that are here.
    Mr. Thornberry. It just seems to me that puts a little 
different perspective on the scope of the issues that both you 
gentlemen have to deal with if it is not just combat, but the 
entire gamut of those problems. Thank you, I yield back.
    The Chairman. Thank you. Mr. Secretary, do you know if 
there is any correlation between this age group in the military 
committing suicide and those not in the military, but of the 
same age group committing suicide?
    Secretary Shinseki. Mr. Chairman, an important question. 
The CDC [Centers for Disease Control] publishes every year the 
top 10 leading causes of death amongst Americans. And as I 
recall, the last report--and it is a continuous track in the 
age group 15 to 24, suicides is the third leading cause of 
death in the top 10 of Americans. In the age group 25 to 34, it 
is the second leading cause of death.
    So suicides, it is a national discussion here. And when you 
recruit out of that population and put youngsters through the 
stresses we all are familiar with in combat, very small 
percentage serve in uniform, yes, suicides become a matter of 
great focus, interest, and importance to both Secretaries. I 
guess the follow-on question is how do we try to decide who are 
best suited to serve in the recruiting effort? But I no longer 
have those responsibilities. I used to at one time.
    The Chairman. Thank you. Ms. Sanchez.
    Ms. Loretta Sanchez. Thank you, Mr. Chairman. And thank 
you, gentlemen, again, for being before us today. In preparing 
for this hearing, I asked my staff back in Orange County to go 
through the casework we have with respect to veterans in 
transition. And although we have a great relationship with our 
VA Hospital in Long Beach, and we have two clinics, one in 
Santa Ana and one in Anaheim in our district, the reality is 
that the most troublesome area with respect to these cases 
involve the quality and the lack of health care for our service 
members who are transitioning from active, or having been 
called up and are now out into the veterans world, if you will. 
And in fact, I have a lot of veterans who come to my office and 
they express real concern about not receiving treatment or 
having a long time to wait for a specialty doctor, for example.
    In Long Beach, it would be oncology, where we must be 
short-staffed or something of the sort. And the other really 
big concern for them is the issue of being prepped up for a 
surgery and then somebody on the surgery team doesn't show up 
out of whatever, and the surgery is then postponed. And it 
isn't until these people come to my office and we call in 
directly that we are able to get that rescheduled.
    So my question is, how are you addressing these types of 
concerns with respect to health care? And why, if a surgery is 
scheduled, why aren't people showing up to be on that surgery 
team? And more importantly, why does it take a congressional 
office to call to ask that it be rescheduled?
    Secretary Shinseki. All fair questions, Congresswoman. If 
you would give me the details, I am more than happy to research 
both your frustration and mine. We owe veterans better. And I 
agree with you.
    Ms. Loretta Sanchez. My second question is with respect to 
homelessness. We have a lot of great organizations helping us 
with that, but they are low on funds. Is there any grant 
program coming up for something like that for local 501(c)(3)s 
to help?
    Secretary Shinseki. We have provided grants for the past 2 
years. Two years ago, about $60 million worth of grants were 
provided under the Supportive Services to Veterans' Families 
Fund. Just recently announced this year's investment of $100 
million. And in the 2013 budget we have a request for an 
increase to that investment as well.
    Ms. Loretta Sanchez. Thank you so much, Mr. Secretary.
    Mr. Thornberry [presiding]. Mr. Stutzman.
    Mr. Stutzman. Thank you, Mr. Chairman. Thank you to both 
you gentlemen for being here today. The President has announced 
a new model of the TAP program. As we understand it, everyone 
will be required to attend a 1-day DOD pre-separation class, 
followed by a 3-day employment workshop, and a 1-day VA 
benefits briefing.
    Other training in non-job seeking, such as determining 
readiness for postsecondary education and entrepreneurship, 
will be offered as voluntary, and not subject to the mandatory 
provisions of law. This is hardly a tailored approach that 
would meet the needs of those whose post-discharge intentions 
are to attend school or to start a business. Offering 
nonemployment-related instruction as voluntary ignores the fact 
that it is difficult enough to get supervisors to allow service 
members to attend the current 3\1/2\-day course, much less 7 or 
8 days away from the unit, especially if that unit is preparing 
to deploy. Will you make all 8 days of TAP, including the 
voluntary nonemployment, mandatory?
    Secretary Panetta. I think we have got to move in that 
direction. You know, we are doing nine pilots that are 
basically going to test this out. And we are hoping to complete 
those pilots by November and learn, you know, just exactly what 
we have to require, how do we have to mandate it, how do we 
have to revise it. But, you know, my sense is the only way it 
works is if you make it mandatory.
    Mr. Stutzman. The model that the Marine Corps is using in 
giving the options to those who are about to discharge, is that 
a model that is worth looking at as well?
    Secretary Panetta. I would think so.
    Mr. Stutzman. It seems like that would give a lot of 
flexibility, because not every service member is going to be 
coming out planning on just going into the workforce.
    Secretary Panetta. That is right. Some will want to stay.
    Mr. Stutzman. Absolutely. Yes. Thank you. I yield back.
    Mr. Thornberry. Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman. I would like to thank 
both chairmen and the ranking members for making this happen. I 
have talked seamless transition for most of my adult life, and 
it appears like it is happening. So I thank you. And to both of 
you, you have my deepest gratitude, and the people of the First 
District, for the defense of this Nation and the care of our 
veterans. I have got kind of a tough one here, it is a 
troubling one, I know it troubles both of you. The issue that 
came out in the GAO report of the 26,000 soldiers discharged 
under personality disorders. My question is, and it is brought 
to the fact by the Vietnam Veterans Commission to study at Yale 
Law School about what are we doing about that? And my question 
to you, probably to you, Secretary Panetta, is what are we 
doing to review and correct the records of those veterans who 
may have been improperly discharged with a personality disorder 
diagnosis?
    Secretary Panetta. We are conducting a complete review of 
those areas. We have responded to the situation that took place 
up in Washington. That was the focus of the GAO report. And 
that is what concerned us a great deal. And as a result of 
that, we are not only running a review there, we are running a 
review elsewhere to make sure that the same kind of problems 
have not occurred elsewhere. You know, it is important that we 
determine why someone would get this diagnosis and then it 
would be downgraded. I mean, there may be some legitimate 
reasons for it. But in this instance, it happened to too many 
people. And that raised tremendous concerns.
    Mr. Walz. I appreciate that sentiment. Because my concern, 
I am sure like yours and now Secretary Shinseki's, is that one 
of the biggest problems here is it is not benefits 
compensation, it is the inability to get care for existing, and 
that could have been whether it was existing or exacerbated by 
their combat experiences, their time in the military, they are 
not getting that care through our wonderful folks at the VA, 
and how do we fix that? I would add, too, that as these have 
decreased, personality order discharges, adjustment disorder 
have increased. And so I thank you both for paying close 
attention to this. I yield back.
    Mr. Miller [presiding]. Mr. Jones.
    Mr. Jones. Thank you, Mr. Chairman. Mr. Secretary Panetta, 
2 years ago in the NDAA [National Defense Authorization Act] 
bill, the House had a provision that said if you have served 
this country at war and you come back home and you are in the 
process of a medical review of your condition, but in that 
period of time, you self-medicate and get yourself in trouble, 
so therefore you have been given less than an honorable 
discharge before the Medical Review Board finalized their 
decision, the House position basically said to that individual, 
if you are given less than an honorable discharge, you can go 
back to the Department of Defense and ask the Department of 
Defense to review your medical records and maybe change your 
discharge.
    And I would like to know how you all are handling this 
issue, how you are contacting those who maybe were given less 
than an honorable discharge?
    Secretary Panetta. Congressman, let me respond to you 
directly through the Department. Because this is the first time 
I am familiar with the issues you just presented. And I want to 
give you an accurate answer. And let me give you that answer 
through the Department, if I could.
    [The information referred to was not available at the time 
of printing.]
    Mr. Jones. Thank you, Mr. Secretary. That would be very 
satisfactory. And thank you very much. I yield back.
    Mr. Miller. Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. And thank you both for 
your really unparalleled leadership in trying to work and 
coordinate these programs. I wanted to ask you about 
coordination, about resolving the misalignment between the two 
care coordination programs between the DOD and the VA. You 
talked about traps and trying to get over those. What is it 
that is causing these problems? I know one of my colleagues 
mentioned earlier that it seems to be creating more confusion 
than anything else.
    Secretary Panetta. You know, the biggest problem here is 
these things have developed on separate tracks. And as a 
result, you know, you got two bureaucracies that basically 
developed their own approach to dealing with these systems. And 
they get familiar with them, that is what they use, they resist 
change, they resist coordination, they resist trying to work 
together. And that is the fundamental problem we have.
    Mrs. Davis. Have we tried to switch off occasionally? I 
think one of the other issues I really wanted to ask about was 
counseling, because the coordination programs as well as the 
Transition GPS program that the President has proposed and we 
are moving forward on, call for counselors. And we know the 
problems in mental health, but how are we planning for the kind 
of counselors that are going to be needed for this? Because 
clearly, they are going to have to be cross-trained in many 
ways, understanding both systems as well as small business, et 
cetera. How are we planning for the immersion of these kinds of 
folks who are really going to be critical to this, yet we 
really don't have them in any great number?
    Secretary Panetta. That, I think, is the fundamental key to 
making this transition work, is to have counselors that are 
familiar both with veterans and defense areas. What are the 
benefits? What are the opportunities that are available? And be 
able to present that. So it is going to take some training of 
the people that are going to be part of this effort so that 
they provide good counseling to those that are involved.
    Mrs. Davis. Is there a cost factor involved in that as well 
that we need to address?
    Secretary Panetta. There is going to be a cost factor 
involved here. And, you know, we will have to discuss it.
    Mrs. Davis. May I just suggest as well that there may be 
some great models around the country? We think we have one in 
San Diego. And if we could look at some of those models, that 
would be helpful. Thank you. Thank you, both.
    Mr. Miller. Mr. Flores.
    Mr. Flores. Thank you, Mr. Chairman. Thank you, Secretary 
Panetta and Secretary Shinseki for being here today. Also 
Secretary Panetta, thank you for protecting valor for those 
that have earned it. My question is a little bit more 
theoretical. And what prompts this is the claims processing 
time at the Waco Claims Regional Center in Texas, which is the 
worst in the country when it comes to adjudicating disability 
claims. What can we do if the IDES doesn't work? I mean, what 
are you thinking about in terms of a new paradigm to fix this 
issue? And both of you can answer, either one of you. It seems 
to me like we have got cultural issues that cannot be fixed by 
having new systems. So how do you make--I mean, you are doing 
your best to get the systems right, but what are we doing to 
fix the culture so that we do what we promised our military men 
and women, our veterans that we would do in terms of providing 
benefits to them for their service?
    It just seems to me like, you know, we have spent all our 
time on systems, we are not spending any time on culture. So 
can you help me with that? And let me interrupt before you 
answer. One other thing. Are you thinking about a pilot program 
so that if IDES doesn't work, what are you going to do? Where 
is the clean sheet of paper? Where is the whiteboard that has 
the big ideas to fix this?
    Secretary Shinseki. Congressman, I just want to be sure I 
am answering the right question here. Waco and claims would 
sound to me like disability claims that we normally handle. 
IDES is a joint program that DOD and VA. So it is the IDES 
question that you have here. We have piloted IDES. We started 
off with 27 sites. These are a DOD initiative with VA in 
support. We are at 139 sites now, fully operational across the 
Nation. And I think we both have put in place controls that 
will drive this to the target, which is 295 days for 
processing. Now, that sounds like a lot of time. On the one 
hand, when we did our systems independently, sequentially, DOD 
first and then VA, it was like 540 days. Right now, with an 
Integrated Disability Evaluation System, that is down below 400 
days, and we are targeted on 295.
    When we get to 295, which is going to be a bit of work, and 
it sounds like a long time, but involved in the 295 days is 
care and surgical procedures that veterans who have been 
injured are still going through. And there is leave associated 
with that. Whenever a surgery occurs, an individual is provided 
X amount of days for recuperation leave, so to speak. All of 
that is factored into this 295. So when the 295, while it 
sounds large, it is a treatment and transition program. I think 
we have a right model here. What is incumbent on us is to get 
to the targets we have described. In the 295, VA's piece of 
that is about 100 days. Right now we are at 145 days. We have 
been as low as 103, and then we get a surge from our friends in 
DOD and we adjust. But we know we can get to 100 days. And we 
are proceeding.
    Mr. Miller. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. Secretary Shinseki, we 
know right now that VA topped out in May at about 904,000 
claims. And as you just mentioned, we have got about 65 percent 
of them are over 125 days, and 1.25 million is projected for 
2013. My question is, can the current system handle the 
expected reductions in end strength projected in the 
President's budget and under sequestration? And if you could 
give me a yes or no answer on that, and then elaborate any way 
you want to to clarify it?
    Secretary Shinseki. Your number is a little higher than 
mine, but I will accept it. It is a big number, nearly 900,000 
by my count. Let me explain why the inventory, that is the 
total number of claims in processing, and the backlog portion 
of that, 65 percent or so, 550,000 of those are backlogged, why 
these numbers result. In the last 3 years, the VA has made 
three significant decisions. We awarded Agent Orange service 
connection for Vietnam veterans, three new diseases; we awarded 
Gulf War illness, nine new diseases for veterans who had been 
waiting in the case of Gulf War veterans 20 years since the 
conclusion of that conflict; for Vietnam veterans, 50 years.
    We also granted, the third decision was combat verifiable 
PTSD service connection for anyone who served in combat and has 
been diagnosed with verifiable PTSD.
    Mr. Forbes. Mr. Secretary, my time is running out. How will 
sequestration and these end strength reductions impact these 
claims going forward?
    Secretary Shinseki. Well, I would say that in the case of 
VA, we have been informed that VA is exempt from sequestration 
except for administrative costs. I don't have a definition of 
administrative costs right now. But what I would, Congressman, 
say, that I am with Secretary Panetta, the reason you have the 
two of us here, whatever impacts him is going to have some 
effect here, even though I have been exempted. And it has my 
attention.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Miller. Mr. Secretary, you just said that possibly 
administrative costs would be affected by sequestration. The 
President the other day at the VFW [Veterans of Foreign Wars] 
said no veteran issues would be touched by sequestration. Could 
you explain to this committee? Because there is still some 
conflicting information that is out there from the acting OMB 
[Office of Budget and Management] director letter that I got 
back in June. How much is VA going to be affected by 
sequestration?
    Secretary Shinseki. I will go back to I believe what you 
received in that letter, is that VA is exempt from 
sequestration. And I don't have the letter in front of me, Mr. 
Chairman. I think administrative costs were listed in that.
    Mr. Miller. So it is your understanding no benefit, 
function, program, account would be subject to, only 
administrative costs? And again, if you would like to take it 
for the record because of time.
    Secretary Shinseki. I think this would be one that I best 
provide to you a response for the record.
    [The information referred to was not available at the time 
of printing.]
    Mr. Miller. Thank you, Mr. Secretary. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman. Secretary Panetta 
and Secretary Shinseki, thank you very much for being with us 
this morning.
    Secretary Shinseki, we talked about suicides quite a bit. 
But can you provide us with an update on your efforts to end 
veterans' homelessness? Can you give an estimated number? Is it 
as serious as suicides? And what programs do you have in place?
    Secretary Shinseki. Congresswoman, I think you may be 
familiar with the fact that we in the Department of Veterans 
Affairs have established 2015 as the point in time where we 
intend to end veterans' homelessness. And when I say end 
veterans' homelessness, there are two pieces to veterans' 
homelessness: One is the rescue. That is getting everyone on 
the street off the street, into housing, into programs that get 
them treatment for substance abuse or depression, training for 
employment, and moving on with their lives.
    What won't end in 2015 is prevention. Prevention will be 
ongoing. What do I mean by ``prevention''? Right now we have 
about 900,000 veterans in the GI Bill programs. And that is 
colleges, universities, community colleges, tech trade schools. 
Any youngster who fails out of that program right now in this 
economy is at high risk of homelessness. And so our prevention 
effort here is to make sure youngsters get into school, stay in 
a school, graduate, and have an opportunity to go on and work.
    Our housing mortgage program, last year about 90,000 
veteran mortgage holders who had defaulted on their home loans, 
we were able to defer roughly 75 percent of them from being 
evicted from their homes. And that is with VA's financial 
counselors getting in there, helping them get control of their 
finances, lowering the monthly payments, extending the payment 
period. The return to us is that we are able to then share 
stability. We will deal with these veterans as homeless 
veterans otherwise. And our records indicate that a homeless 
veteran's health care costs is about 3\1/2\ times what the 
health care costs are for veterans who are not homeless. So 
there is a--it is an important aspect of this. And while I say 
we were able to save 75 percent, there is still 25 percent we 
did not save. And we have got to just do better at it.
    Ms. Bordallo. Thank you. Thank you, Mr. Secretary.
    Mr. Miller. Mr. Johnson.
    Mr. Johnson of Ohio. Thank you, Mr. Chairman. And both of 
you, General Shinseki and Secretary Panetta, I have come to 
respect greatly both of your commitments and your heart for our 
veterans. I will tell you, though, that I am not convinced that 
all the members of your organizations, your Departments share 
that commitment and will follow through with the commitments 
that you two are making. I understand that you can't account 
for the last 10 years, Mr. Secretary. And I understand that 
you've got two bureaucracies that don't necessarily like to be 
told what to do and get along all the time. But I will submit 
to you that another 5 years is unacceptable. It is unacceptable 
to me, and gentlemen, it ought to be unacceptable to you. This 
is not a matter of can do or should do. This is a matter of 
want to and will do. This is 2012. And one of the underlying 
issues, Mr. Secretary, quite honestly, is the VA's lack of an 
overall information technology architecture.
    You and I have talked about this before. And it still 
doesn't exist today, as far as I know. I have pointed that out. 
My committee has pointed that out. Organizations outside that 
have looked at the VA's IT department have pointed that out. 
You know, I am just not convinced that 5 years from now, given 
that I don't know where you two will be, but my fear is that we 
are going to be sitting right here talking about this same 
issue again because we are not going about it with the 
discipline that is needed.
    I come from an information technology career of over 30 
years. I worked at U.S. Special Operations Command as the 
director of the CIO [Chief Information Officer] staff. I know 
what it takes to get this stuff done. And 5 years, gentlemen, 
is totally unacceptable. And I don't really have a question for 
you. I just want you to fix this, for crying out loud.
    Secretary Shinseki. May I respond? Congressman, you and I, 
but more primarily Roger Baker and you have had this 
discussion. I will work with you. And we believe we have a good 
mark on an architecture. Obviously, we haven't satisfied you. 
We will come back and work it again.
    Mr. Miller. Mr. Turner.
    Mr. Turner of Ohio. Thank you, Mr. Chairman. To both of our 
Secretaries, thank you for being here. I appreciate your 
leadership. And Secretary Panetta, I want to particularly thank 
you also for your work on sexual assault, which I know that you 
are working on in coordination with the Secretary of the VA, 
and your efforts to try to change the culture throughout DOD to 
both prevent sexual assault and to assist the victims. And 
thank you for your leadership there.
    Many of the questions that you have received from members 
have been about service members and their families 
transitioning out of the military. Secretary Panetta, one of 
the most important things for the service members in 
transitioning with their family is obviously to keep their 
family together. And that raises the issue of custody. I want 
to thank Chairman Miller, Chairman McKeon, Subcommittee 
Chairman Wilson, and also I want to acknowledge Chairman 
Skelton, former Chairman Skelton, and of course, Erin Conaton 
and her work on the issue of custody in this committee.
    The House, as you are aware, has passed eight times 
legislation that would protect the custody rights of service 
members, the VA Committee twice, HASC six times. Secretary 
Gates had endorsed the provisions that the committee had 
passed. You had sent a letter suggesting a compromise that 
Senator Boozman is going to be drafting in the Senate. I just 
want to ask for your support for that, and also, to tell you 
that we are going to need your additional assistance.
    The Uniform Laws Commission just brought out a draft 
uniform bill that would change the State laws, actually 
reversing all the progress that we have made actually in favor 
of taking service members' custody rights away. We hope to have 
your support for Senator Boozman's legislation. Secretary.
    Secretary Panetta. I appreciate that. As I indicated to you 
in my letter, I support the efforts that you have made. You 
have provided tremendous leadership on this issue. And I will 
do the same with regards to the amendments on the Senate side.
    Mr. Miller. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. And thank you both 
for being here today. Like others before me, Congressman 
Turner, I want to thank you, Secretary Panetta. I appreciate 
very much your efforts that you have made over the last several 
months to improve the treatment of survivors of military sexual 
assault. And Secretary Shinseki, I was so heartened to learn of 
your recent interest in the documentary film, ``The Invisible 
War.'' As you say, that which starts during military service 
ends up in the VA. And that movie so painfully highlights the 
multiple bureaucratic hurdles survivors of such assaults, which 
are all too frequent across all the services, must endure to 
prove that their physical or their psychiatric symptoms are 
connected to an incident of military sexual trauma.
    And it shows that too often, victims are unsuccessful in 
pursuing their claims for assistance. To address one aspect of 
this problem, the fiscal year 2012 Defense Authorization Act 
included language that required the Secretary of Defense, in 
consultation with the Secretary of Veterans Affairs, to develop 
a comprehensive policy for the Department of Defense on the 
retention of and access to evidence and records relating to 
sexual assaults involving members of the armed services.
    This policy is to be in place by October 1, 2012. Can you 
both comment on the status of this policy? I would also welcome 
any further thoughts you may have on how these claims can be 
processed faster and more accurately.
    Secretary Panetta. Well, it is a very important issue for 
me. I am not going to wait for the legislation in trying to put 
that policy in place, because I think it ought to take place in 
providing that kind of guidance and assistance to those that 
have been the victims of sexual assault so that they get the 
kind of support that they need in order to not only get the 
care they need, but if they want to continue in their career, 
to get the support system that would allow them to continue 
their career. And I think it is fair to say that Secretary 
Shinseki and I are going to work together on this issue to make 
sure that we can deal with this on both sides, not only the 
Defense side, but on the Veterans side for those that 
ultimately move in that direction.
    Ms. Tsongas. Thank you both. I look forward to seeing that 
policy in effect. Thanks.
    Mr. Miller. Mr. Denham.
    Mr. Denham. Thank you, Mr. Chair. Mr. Panetta, Mr. 
Shinseki, great to see you both here. Mr. Panetta, I have been 
working on these veterans issues for quite some time with you 
in our area of central California. By the way, thank you for 
support on the Veterans Skills to Jobs Act that was signed this 
week into law. A good bipartisan effort that Mr. Walz and I 
worked on after our Afghanistan trip. Another issue that came 
up during that same trip was working with our veterans on 
Active Duty that were transitioning back that had disabilities. 
And further conversations with General Bostick afterwards. You 
know, he had said that this is the number one issue, the 
evaluation process of those disabled before they get 
discharged, making sure that not a day goes by that they are 
having to wait for disability, or the issue of 20,000 
nondeployable men and women that are disabled on Active Duty.
    So he said it was the number one issue dealing with--
legislative issue that needs to be fixed back from 1940. The 
question I would have for you, is what can we get done? What 
would be your recommendation? What is the legislative fix that 
you need us to pass that would help with this overall 
disability evaluation system?
    Secretary Panetta. My view is that one of the most 
important things we can do is address the needs of our Wounded 
Warriors and the ability of those individuals. If they want to 
stay in the service, we ought to do everything we can to help 
them stay in the service. If they want to move on, then it 
becomes something where we have got--we and the VA have to work 
together to make sure that that transition is as smooth as 
possible. We have a tremendous amount of focus on this. I guess 
probably the one key is, again, helping us in terms of funding 
to make sure that we have the funds necessary to complete these 
evaluations and give them the assistance they are going to need 
once they move on. That is a key area for me.
    Mr. Denham. Outside of funding, is there a legislative fix 
that you are looking for?
    Secretary Panetta. At this point, I have to tell you, I 
mean, I think we have the pieces we need. I mean, we have got 
large numbers that we have to deal with. But the programs are 
in place. The assistance is in place. We have just got to make 
sure that we provide the resources necessary so that we can do 
what we have to do to help them. That is the key.
    Mr. Denham. Thank you.
    Mr. Miller. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Secretary Panetta, 
Secretary Shinseki, thank you so much for joining us. Secretary 
Panetta, I want to ask you about how we can better align 
military to civilian jobs in transition, especially as it 
relates to licenses and certifications. Give you a great 
example. You take a highly trained combat medic, comes back 
home, wants to go into the civilian side, wants to become an 
emergency medical technician. Unfortunately, as you know, 
certifications there prevent him or her from doing that. Has to 
go through lengthy schooling, take on lots of debt. Many times, 
they could probably be teaching the class. How can we better 
align the skills that are obtained in the military to parallel 
what they could be pursuing in jobs on the civilian side? That 
is one of many categories that I know that you are aware of. 
And it is really a matter of taking that military job 
description and figuring out how do we align that, or how do we 
get some paralleling with what they are doing in the military 
versus outside?
    Secretary Panetta. Well, it is a great point. It is 
something actually the First Lady has dedicated a lot of time 
to. We have got to push States to try to develop some common 
standards here with regards to accreditation in these various 
jobs. These guys come out and they have got great skills, they 
have worked in these areas, they have done tremendous work in 
their particular skill area. And to come out and then have to 
drag them through a whole process in order to be able to take 
those skills and make them applicable, that is something that--
there are a number of States that are willing to basically take 
these individuals and take the accreditation that we provide 
and incorporate that at the State level. We have got to get all 
of the States to recognize that kind of credentialing.
    Mr. Wittman. Mr. Secretary, is it something we could do 
within DOD so as these individuals come out, if they become a 
trained medic, they would also, at the same time, that they get 
that certification would get something within the military to 
say by the way, now you have a credential that is an EMT 
[emergency medical technician] within that particular State, 
say where they are based or they have some kind of way that 
there is an equivalency there? Because they are obtaining the 
same skills there as they would outside.
    Secretary Panetta. I think that is a good point. One of the 
things I am looking at is can we develop some kind of 
certification within the military that would then be 
transferable in terms of their getting a job within the State.
    Mr. Wittman. It seems like if you just align things that 
align with outside, there could be some reciprocity.
    Secretary Panetta. That is right. Good point.
    Mr. Wittman. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Mr. Miller. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman, and thank both 
witnesses for your attendance here today. Secretary Shinseki, 
you know, I am wondering if you could talk for a minute about 
an initiative that I think falls under today's hearing, which I 
think is a very exciting example of the work the VA has been 
doing with health IT, which is the Blue Button program, which, 
again, is something that again, I think you have surpassed even 
the private sector in terms of really trying to give patients 
control over their own medical situation, as well as make a 
smarter system in our health care delivery.
    Secretary Shinseki. I will just say it is one of several IT 
initiatives, but Blue Button is the one that has received a lot 
of attention. And there are civilian health care systems now 
that are adopting the concept. And that is with a single stroke 
of a mouse on the Internet, you are able to access your data, 
personal data regarding health care. And you can download your 
records, you can take those records and use them as you would 
with your own private physician. It has tremendously grown in 
size, into the millions. And we think this is also helpful for 
the private sector in having that kind of concept capability.
    Mr. Courtney. And the nice thing about it is it gives the 
patient control in terms of being able to move, go from one 
provider to another. And again, just congratulations to you and 
your team for really leading the way for the whole health care 
sector really in terms of that initiative. And I know comments 
have come up, and I am running out of time, the issue of 
regionalizing claims is emerging as an issue in Connecticut as 
well. And again, I look forward to working with your Department 
in terms of trying to solve that problem.
    Secretary Shinseki. We will do that.
    Mr. Miller. Ms. Buerkle.
    Ms. Buerkle. Thank you, Mr. Chairman. And thank you both 
for being here this morning and for your service to our Nation. 
It is an honor to have you both here. My question has to do 
with, and you have heard some references to it, the Dole-
Shalala Commission, and the fact that now 5 years later, after 
they issued this urgent call to streamline, to make sure we 
have a single point of reference for the care and the services 
and the benefits of our military, we have two very distinct 
entities. We have had multiple hearings trying to get assurance 
from DOD and from the VA as to how you are going to get this 
together so that we can make sure our veterans get the services 
without being overwhelmed by an extremely complex system.
    So I would ask both of you today, please, how specifically, 
what are the goals, what is the plan to get these two entities 
under one roof so that you are complying with the Dole-Shalala 
Commission and their recommendations for our veterans? I thank 
you both.
    Secretary Shinseki. The program, the Federal Recovery 
Coordination Program, in existence since 2007. And I think as 
Secretary Panetta indicated earlier, two good Departments 
launched and essentially developed good programs that don't 
quite harmonize. We have a task force with the specific 
direction to study and bring harmony to these programs. Where 
are we being--duplicating one another? Where are we not doing 
things that we should be doing? So it is going to get a good 
look here, and I say in the next couple of months. And I would 
be happy, and I think Secretary Panetta would be as well, to 
make our people available to provide the results of that.
    Secretary Panetta. You know, look, Secretary Shinseki and I 
share the same frustration. I mean, we have been working on 
this, and, frankly, we have been pushing to try to say why 
can't we get faster results? Why can't we get this done on a 
faster track? And, you know, bottom line is, frankly, we just 
have got to kick ass and try to make it happen. And that is 
what we are going to do.
    Ms. Buerkle. I would suggest in your opening statement, Mr. 
Panetta, you mentioned commitment, and that we look to our 
military as an example, their commitment to our country. We 
should be that committed to them to make sure we get this job 
done. I thank you both very much.
    Mr. Miller. Dr. Heck.
    Dr. Heck. Thank you, Mr. Chairman, and thank both of you 
for being here today. Likewise for your long and distinguished 
service to our country. Secretary Panetta, I am happy to hear 
about your initiative on the Stolen Valor Web site, realizing 
that any Web site will probably have limitations. As you may 
know, myself and Senator Brown have introduced legislation to 
reinstitute the Stolen Valor that will meet constitutional 
scrutiny. So hopefully, we will be able to gain your support on 
that. We have heard a lot about the Integrated Disability 
Evaluation System, something that after spending over 20 years 
in the Army Medical Department I think was far too long in 
coming. And I am encouraged by the pilot results. In fact, I 
have two down-trace units that are getting set to mobilize in 
October to support those efforts, CONUS [continental United 
States]. But we have seen over time the processing times start 
to creep back up.
    And even though there has been--customer service has 
increased over the legacy system, that was really a low bar to 
overcome. And we are hearing a lot of the fact that the program 
is somewhat complicated and convoluted. Other than volume 
driving the creep in processing times going back up, what other 
issues are there that are causing that processing time to 
increase, and what can we do to help you decrease those times?
    Secretary Shinseki. Well, I think I indicated earlier that 
we have a target of 295 days. Within, I would say, the DOD's 
portion of that is the medical care of seriously wounded and 
injured individuals who still have their care to be completed, 
and also recuperation leave as part of that. So it is a little 
bit--individuals have some control here. And also, I think 
Secretary Panetta alluded to this, these youngsters know the 
military health care system. They know it very well. They are 
very comfortable with it. It is world class. They know VA's 
health care system less. And there is a point in time where a 
decision has to be made to make that psychological commitment 
you are going to leave the military.
    We in VA can do a lot to help educate folks to make them 
comfortable about being able to let go of--you know, like wing 
walking, one hand hold before taking the next one. And I think 
that will help streamline the process. But as I say, we have 
both agreed to this 295-day target, and we are moving to that 
point.
    Mr. Miller. Mr. Johnson.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman. Thank you, 
gentlemen, for being here. Secretary Panetta knows how much I 
appreciate his service to the Nation over the years. And I 
certainly thank you again, sir, in public. And General 
Shinseki, I have not had the opportunity to spread my love for 
you publicly, but you are a true gentleman.
    You served admirably in the United States Army, became a 
four-star general, became the Secretary of the Army--or 
chairman of the Army. Army Chief of Staff. That is what it was. 
And in that capacity, you put in place strategies, very 
innovative, that have held us in good stead up to this point.
    You are a forward-thinking leader. And you are also a 
courageous and honest leader. I would be remiss not to point 
out the fact that during the run-up to the war in Iraq, you 
took a public bashing from high-level members of the previous 
administration for your assessment as to the number of troops 
we would need to effectively occupy Iraq in the aftermath of 
the war going in. And you paid the price for that in being it 
said that you were perhaps forced to resign early. But 
nevertheless, the underdog is now on top.
    And you bring the same innovative, strategic thinking to 
your new post that you had in the old post. And it is 
definitely needed. And I think it is going to pay off. And I am 
glad that your Department and the Department of Defense have 
both become more integrated in how we address the needs of our 
service men and women as they make the transition from military 
force--has my time expired already? Okay. I keep hearing a--you 
want me to move on from what I am saying, or what?
    Mr. Miller. Your time has expired, Mr. Johnson.
    Mr. Johnson of Georgia. Has my time already expired?
    Mr. Miller. A minute ago.
    Mr. Johnson of Georgia. Oh, 2 minutes. I am sorry. All 
right. But thank you, sir, for your service. And I yield back.
    Secretary Shinseki. Mr. Chairman, may I just a small point 
here. I thank the Congressman for his compliments. I would just 
say there are more than this one individual who held that 
opinion. And I was not forced to resign. I served a full and 
complete tour as the Army Chief, and I was very proud do that. 
Thank you.
    Mr. Johnson of Georgia. Thank you. I stand corrected.
    Mr. Miller. Mr. Johnson, I am trying to save you from 
yourself because the next person up is Mr. Runyan.
    Mr. Johnson of Georgia. Oh, I don't think I need to be 
saved from myself.
    Mr. Miller. You haven't seen Mr. Runyan.
    Mr. Runyan. Thank you, Mr. Chairman, and, gentlemen, thank 
you for being here. I want to touch on the IDES process. I know 
in Secretary Panetta's opening statement the last sentence of 
that particular paragraph or the end of the IDES statement says 
you are going to have a senior level working group in 
coordination with the VA and provide recommendations on how to 
move forward. I know Secretary Shinseki knows that I happen to 
chair the DAMA [Disability Assistance and Memorial Affairs] 
Subcommittee in the House VA Committee. We just had a hearing 
on this back in March, and I asked the DOD to acknowledge the 
specific roles the VA has in the process and distinguish the 
roles that the VA and DOD carry out. And I have also been 
briefed by the GAO that they have great concern of the 
overlapping responsibilities in the two.
    There is a couple of issues and time running out that I 
just want to bring to both of your attention you can have here, 
specifically dealing too with the medical evaluation narrative 
summaries, is that clear, and they lack clear and complete 
diagnosis of the service member which a lot of times renders an 
unfair decision. And the arbitrary time date of 7 days to 
challenge that, refuting that decision. I sometimes think to 
get the complete medical evaluation you need I don't think that 
is possible. Dealing with the PEBLOs [Physical Evaluation Board 
Liaison Officers] and their ability or lack of--I don't know--I 
know quality control has been used a couple of times by some 
VSOs [veteran service organizations] but not so much they are 
not reaching out to the veteran. And I know some of the VSOs 
brought up instances where JAGs [Judge Advocate Generals] have 
been involved and the process went a lot smoother because they 
understand the process a lot better. There are some points I 
wanted to bring to both of your attention that I hope would 
come up in those discussions and I yield back.
    Mr. Miller. Mr. Scott.
    Mr. Scott. Thank you. Thank you, Mr. Chairman. Secretary 
Panetta, you mentioned earlier one the problems was the 
limitation of the number of health care providers. I have got 
some information I would like to share with you. I represent 
Georgia, which has a tremendous number of veterans, a proud 
military history. And one of the medical providers gave me this 
list and it is actually a list of reimbursements versus 
Medicare reimbursements. And I will just give you a couple of 
examples. For the exact same code, Medicare reimburses about 
$2,000 and TRICARE reimbursement is somewhere in the $630 
range. That is one of the reasons that many of the private 
sector providers out there are having to limit the number of 
our veterans that they are seeing; they are covered under 
TRICARE. So I will just share this with you, and it is not that 
they don't want to see them, it is that if they are the only 
person that is signed up in that area, then it becomes a huge 
portion of their practice. And quite honestly the practices 
have to be revenue positive. But I will leave this for you and 
we will go from there.
    Mr. Shinseki, if I had a second copy I would give it to you 
and I can get copy for you as well. We kind of beat around this 
a little bit. I trust both of you as great leaders. We beat 
around this issue of having two bureaucracies that resist 
change. And so my question, open-ended to either one of you 
that wants to take it, is would the men and women that are 
serving this country be better served if the health care 
benefits were handled under either one of the agencies instead 
of both of the agencies in having to make that transition?
    Secretary Panetta. Well, you know, I thought about that a 
lot. But I think the reality is we have got these systems in 
place. The veterans are very tied to their health care system 
and, you know, the benefits that they receive there, and 
obviously DOD is very tied to our system. But the key--I don't 
think that ought to inhibit our ability to bring these two 
systems together, let me put it that way. I don't think we have 
to create another monster. I think all we have to do is be able 
to get both of these two systems to work together and get it 
done.
    Secretary Shinseki. Mr. Chairman, might I add a little bit 
here. Two huge Departments, we are already collaborating, both 
bringing together in a number of locations joint and integrated 
activities; North Chicago, a Federal health care center, the 
director is a VA person, the second in command is a Navy 
captain. And we are learning a lot from that and we look for 
other areas where we can do this and there are several other 
examples of that. We look at bundling acquisition, large 
acquisition decisions. We are working on right now trying to 
see whether there is a benefit to bringing our pharmacy 
programs together.
    So I think there is great opportunity from efficiencies and 
a business standpoint. I would be cautious about saying we are 
going to create one system here. He has a to-go-to-war 
requirement and the go-to-war requirement has with it a whole 
list of preparations that you have to have competent leadership 
who have been trained how to do this in combat from the top of 
the organization all the way down to the youngest medic in that 
formation. That is an enormous responsibility, and that is a 
culture we don't want to change. We have the best go-to-war 
medical capability anywhere, and that has got to be a primary 
function here.
    Mr. Miller. Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman. Thank you both for 
being here. A special aloha to General Shinseki. My questions 
are for you, General. On page 7 of your testimony you talked 
about of course the VOW to Hire Heroes Act of 2011 which 
Congress and the President signed into law. Do you have any 
statistics or any report you can give us as to how that is 
coming along? And in that same light also on page 7 you talked 
about removing the impediments to credentialing with of course 
the DOD and I would like to know where we are in that as well. 
Thank you.
    Secretary Shinseki. On the VOW to Hire Heroes Act 
implementation, there are various pieces of that. I would say 
one piece, VRAP [Veterans Retraining Assistance Program], is up 
and running. We have veterans who are signing--this is between 
veterans between the age of 35 and 60 who have exhausted their 
unemployment benefits, have a capability for 1 year of training 
in a high priority work area. That is up and running, in the 
tens of thousands people have signed up. In the transition 
arena both Secretary Panetta and I are working this very hard. 
We think we have a good plan being put together, but in our 
case we are still looking at the details of that.
    I am not sure I have addressed all of your questions, 
Congresswoman, but--was there something I missed.
    Ms. Hanabusa. No, I will follow up with any specific 
questions that I may have for the record. Thank you very much. 
I yield back.
    Mr. Miller. Dr. Roe.
    Mr. Roe. Thank both of you all for being here today and 
your service to our Nation. Yesterday we had a hearing, just a 
briefing with Dr. David Rudd on the suicide problem and I would 
like to share with you, both of you all, I won't do it today 
because of time, with his data which was very impressive about 
multiple deployments and how that affected soldiers.
    Number two, I know I have been to Great Lakes twice and it 
is clear when you are a freshman Congressman as I was two terms 
ago when your CODEL [congressional delegation] is to Great 
Lakes in January when it was 4 below zero. So I have been there 
and the question is how is that interconnect interactivity 
between DOD and VA doing now, General Shinseki? Is that working 
better? I was there about a year ago. I know it is up and 
running but how is that working?
    Secretary Shinseki. It just gets better over time, 
Congressman. New concept, bringing two good teams together, 
integrating them. I would say that the area of challenge is the 
single electronic health record. And for the most part there 
are great workarounds but when you get to some places like 
pharmacy, because of the sensitivity to the safety aspects of 
that there are a lot of checks and rechecks. I don't think we 
have solved all of those issues and won't until we get this 
integrated Electronic Health Record. So one team, veteran or an 
active service family member walks in a front door, they go 
wherever. So in terms of the provision of care and access to 
care I think it is first rate. It is the business aspects of 
this that still require more work and the integrated Electronic 
Health Record will go a long way to solving that.
    Mr. Roe. Mr. Chairman, I had a Wounded Warrior in my office 
yesterday lost a leg above the knee, and I personally cannot do 
enough for these Wounded Warriors. I know that you all feel 
exactly the same way, and I certainly appreciate your service. 
Mr. Secretary, I will ask you any further questions at the 
Harris Teeter. I see you there shopping from time to time.
    Mr. Miller. Mr. Coffman.
    Mr. Coffman. Thank you, both of you, for your long and 
distinguished service to our country. Secretary Panetta, I just 
want to commend you and the Secretary and the Department of 
Defense for your work in dealing with combat stress. I have 
served in the Marine Corps in the first Gulf War, in the Iraq 
War. I remember the out-briefings I received in 1991 before I 
left the theater and they were excellent, 2006 they were 
excellent as well. I tracked the improvements in the Department 
of Defense in terms of on the Active Duty side in working with 
our military personnel and those new programs and I think we 
are doing the best we can.
    And you see, the Department of Defense sees post-traumatic 
stress disorder as a wound. However, Secretary Shinseki, the VA 
sees it as a disability. And the signature wound of this war is 
post-traumatic stress disorder and it seems that we have a 
disability-centric approach and not a treatment-centric 
approach in the Veterans Administration. And wouldn't it be 
wise if we invested dollars in treatment and reform the current 
system that was both compassionate, more compassionate I think 
to those who served our country and fair to the taxpayers and 
saving money in the long run by again investing in treatment in 
the short run and being able to allow veterans to see mental 
health practitioners within their private ones, within their 
own communities and not be relying upon the VA. And I would 
love it if you could respond to me now but also respond to me 
on the record because of our limited time.
    Secretary Shinseki. I would be happy to provide a more 
detailed response for the record.
    [The information referred to was not available at the time 
of printing.]
    Secretary Shinseki. Congressman, let me just say I am not 
sure when the decision to treat this as a wound occurred, but I 
think we have all used PTSD disorder as the descriptor for 
many, many years. We are closely linked with DOD on all things, 
we will go back and look at this. So on the one hand I don't 
disagree with what you are suggesting, but I would offer that 
we treat PTSD, we screen every veteran who comes to VA for 
PTSD, TBI, substance abuse, sexual assaults. And so we have a 
pretty comprehensive record of who to treat and then we set 
about treating them.
    Mr. Coffman. There is no requirement for treatment once 
that disability determination is made and I think we need to 
really rethink that and take a look at that again. All the 
mental health professionals that I talk to feel that it is 
treatable down to a level to where it is no longer 
debilitating. And so we need to rethink and potentially reform 
this again to be more compassionate for those who have served 
our country in repairing their lives, and also I think in the 
long run certainly being fair to the taxpayers of this country.
    Secretary Shinseki. I don't disagree. But I do say we 
treat, it is not just a disability.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Miller. Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman. To each of you, we are 
in awe of the extraordinary contributions you have made to this 
country. Thank you for being here today.
    I am going to try to cram three questions into my two 
minutes so I am going to move fairly quickly. On Schedule II 
drugs there is an addiction that often occurs while members are 
still in the military that also continues once they are in the 
VA system. What are we doing to try and deal with this 
addiction problem?
    The for-profit colleges that many of our GIs are accessing, 
there are some bad actors. I want to know if you are sharing 
the bad actors with each other, both from the Department of 
Defense and the VA.
    And finally, I want to tell you about a 24-year-old Iraqi 
veteran who started community college, is starting community 
college next month, he wants to go to law school. His present 
worry is that his foot operation will make it difficult for him 
to get to class in this hilly community college campus. He and 
other injured veterans in my district all would like more time 
to complete their studies under the post-9/11 GI bill. I would 
argue that a 1-year extension would be in order for veterans 
with service-connected disabilities.
    I would like your opinions, both of your opinions on that.
    Secretary Shinseki. Let me just very quick try to take all 
three of them on. On addiction, I myself have asked our people 
whether or not we have medication policies that lead to 
addiction, and we are looking at it; I know that both DOD and 
VA look at this. I was speaking publicly at one point and I 
asked the question are we courageous enough to ask the question 
of whether or not our medication policies create other 
problems. It got a response out of the audience and so I think 
there is something here and we are looking at it.
    On the for-profits, we do share that information. In our 
case we found three bad actors and we have cut them off, and we 
will continue to look at that. But I would just say there are 
bad actors. It is just not for-profits, there are others that 
we need to be sensitive to.
    More time for individuals who are severely injured, you 
indicated. VA has a program for rehabilitating seriously 
injured folks that is a little more liberal and very capable. 
And I would like to ensure that the individuals you are talking 
to are aware of the voc rehab, we call it, vocational 
rehabilitation.
    Ms. Speier. I think you misunderstood my question, Mr. 
Secretary. Whether or not we can extend the GI bill for 
severely disabled veterans so that it does not elapse in the 4 
or 5 years that it is presently the time limit in which they 
have to access those benefits.
    Secretary Shinseki. I would say on the voc rehab--let me 
come back to you on the record to see the amount of time on voc 
rehab is enough. For the GI bill, it is stipulated in law how 
much time is available.
    [The information referred to was not available at the time 
of printing.]
    Secretary Panetta. I think it should be modified because it 
would give us that additional time in the event that they are 
dealing with the kind of serious wounds that your veteran is 
dealing with.
    Ms. Speier. Thank you.
    Mr. Miller. Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman. I thank the gentlemen for 
being here, for their distinguished careers and their 
leadership. And what they are doing is so important right now 
in terms of bringing us better transition.
    I would like to make a couple comments here just based on 
my experience initially as a private in the New York Army 
National Guard and over the course of 24 years rising to the 
rank of colonel, including brigade command where I had troopers 
that made the transition from Active Duty back home and now in 
the vantage point of serving in these responsibilities, that I 
think over time the Department of Defense has really done 
incredible work before service men and women, before they 
separate in terms of education and training, understanding what 
is out there. And now all these efforts to integrate the DOD 
and the VA, but what I think is missing is that back home, just 
when we think we are making a difference we learn of a new 
case, somebody in a village or a town that I was not even aware 
was struggling and they are spiraling down and we are looking 
to make a difference and get them into a community of caring, 
including the VA, VFW, American Legion.
    So Peter Welch and I, my colleague from Vermont, we have 
been working on a program that is actually doing very well for 
the National Guard, the Yellow Ribbon Program, and seeing if 
are there ways we can learn from that that we can provide 
better situational awareness to State officials that are 
actually working this issue. In New York, for example, we have 
it to the county level. And many times they just don't have the 
information knowing a veteran is coming home. Sometimes they 
get it a year of that after they get home but they don't have 
it before they get home; that is to say, the service man or 
woman is coming home and then when they get home. So we are 
very enthused about what you are doing. We don't want to 
duplicate what you are doing. What we are looking to do is to 
sort of evaluate it and see if there aren't ways that we can 
have in the framework, DOD, VA, and then the transition in the 
framework to the State apparatus. So I wanted to mention that 
and just make you aware. I know we have been working with your 
offices and they are doing great work on this.
    And then finally thank you for your work on Agent Orange. I 
will tell you we are not done, we still have Navy veterans from 
Vietnam that don't have the presumed coverage and we are 
working on that effort as well.
    Thank you, gentlemen.
    Mr. Miller. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. General, continue to 
support HUD-VASH [Department of Housing and Urban Development 
Veterans Affairs Supportive Housing]. HUD-VASH program is well 
used in Washington State, especially in my district, the 
housing authorities are partnering very well with others to 
make that happen.
    Second, we started a program in my office to assist some of 
our community and technical colleges to translate the skills 
and abilities that veterans bring into the private sector 
language of what they need, especially as it applies to 
aerospace manufacturing and aerospace skills needed. What we 
found is that some of our community and technical colleges did 
not even know there actually was a translator available online. 
It is sad enough we have to translate that language from 
military to private sector, but we do. So there is a fellow in 
my office we hired who is a 30-year chief, retired after 30 
years out of the Navy as a command master chief. And so his job 
now is doing some outreach to community colleges all over the 
State because they come to this one research or aerospace 
training center and let them know how this works. You might 
want to use that with the DOL [Department of Labor] and the 
Department of Education.
    But finally, where does this one kid fit? He comes home, he 
is discharged from the military, he goes home to a rural town, 
he is not enrolled in VA, has trouble adjusting, commits 
suicide, an actual story in my district. So he doesn't fit the 
military, he doesn't fit the VA. I am not asking you to solve 
that problem from 3 years ago, but I am asking you what is 
being done to reduce the likelihood of that kind of thing 
happening again?
    Secretary Shinseki. This is part of the reason you have two 
Secretaries sitting here, and our efforts are to create a warm 
handoff by and large across the board anyone departing the 
military, but especially for those that have indicated while 
they are serving in uniform that they have some mental health 
challenges. We need not to discover that the hard way. This 
handoff would give us the opportunity to bring to bear VA's 
significant mental health treatment capability so that there is 
a smooth transition for this.
    Secretary Panetta. I would agree with that. In these 
situations you have got to ring the bell, you have got to say 
there is a problem here, and the key right now is to be able to 
pick up that there are those problems, to make sure that that 
individual gets into the health care system and then to alert 
the VA so that they pick it up when we try to make this 
handoff, but that is one the keys we are focusing on.
    Secretary Shinseki. Mr. Chairman, just for one second, the 
translator that you were talking about, Congressman, we in VA 
have created one called VA for Vets. I am pretty sure your 
master chief is familiar with it, but there are about five 
others that touch on various aspects of translating skills.
    Mr. Miller. Mr. Stearns.
    Mr. Stearns. Thank you, Mr. Chairman, and let me compliment 
you for bringing these two committees together. I think this is 
fabulous. I have served on the Veterans Committee for 24 years, 
so I think this is a first and I just think it is a very good 
idea.
    Mr. Panetta and Mr. Shinseki, welcome. I am going to ask 
you sort of a basic question that the GAO has reported that 
basically it takes 200 days with a 68 percent accuracy to 
address the current backlog. And we are hoping that--I mean 
think the timeline is in 2015 to get to 100 days with 98 
percent accuracy. But the question would become how could you 
do this if roughly almost 700,000 new service members are 
coming in? I mean, come on now. How are you going to do this 
with 700,000 new members, new veterans coming in? How are you 
going to cut the backlog in half and increase the accuracy by 
almost 30, 40 percent?
    I will start with you Mr. Veteran Secretary.
    Secretary Shinseki. We are in the process of piloting now, 
you are familiar with VBMS, it is Veterans Benefit Management 
System, first automation tool we have had in VA. We are still 
paperbound today all these many years later.
    Mr. Stearns. I just don't want to interrupt you but Steve 
Buyer was chairman of the committee, he had a bill that was 
going to solve that problem, and this is many moons ago. So 
when you indicate you had this for the first time--I am just 
saying I thought that was implemented some time ago, but you 
are saying it wasn't.
    Secretary Shinseki. I would have to go back and refresh 
myself on what Chairman Buyer's initiative was. But clearly in 
the testimony I presented before the committee there was no 
automation tool ever discussed in the last 3\1/2\ years. In 
fact, the testimony was that we were building this and it was 
going to require close collaboration with DOD. We get paper 
from DOD, we are a paperbound process. And so in order to go 
paperless in VA, it is going to take coordination between both 
Departments and we are piloting that automation tool today and 
we intend to have 16 regional offices automation on VBMS by the 
end of this year. And by the end of 2013, VBMS on all of our 56 
regional offices, 14 and 15 to take down the backlog.
    Now Mr. Stearns, we created the backlog in large measure. 
We made an Agent Orange decision that added a quarter of a 
million claims to the existing inventory. We made a decision on 
combat PTSD that added half a million claims to that inventory. 
Some would say, why would you do that. It was the right 
decision to do for veterans had been waiting for many, many 
years. We are going to work the backlog now. Automation is the 
key piece here we are after.
    Secretary Panetta. Congressman, what you pointed out is a 
hell of a challenge. I mean, we are not kidding anybody. What 
you pointed out is exactly the concern because we are going to 
be adding more and more to that list. I think the key for us is 
if we can develop the systems to deal with what we are dealing 
with now and make those work, it is going to make it much 
easier as additional individuals come on board. If we don't get 
through this, if we don't deal with it and make it more 
efficient now, then it will become an even worse problem in the 
future.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Miller. Our final questioner today will be Dr. 
Benishek. You are recognized for 2 minutes.
    Mr. Benishek. Thank you, Mr. Chairman. I have a question as 
to the nature of the collaboration between the Department of 
Defense and the VA on reducing the backlog. Can you tell me 
more about that? How much--are you working together for this or 
can you just comment on that?
    Secretary Panetta. That is one of the fundamental 
challenges that we have taken on in both Departments is to 
address that backlog and try to make sure that both of us are 
trying to work in a way that reduces those numbers. I think the 
Secretary has done a great job at the Veterans side to try to 
reduce the number of days there. We are working to try to 
reduce the number of days on our side and to be able to try to 
provide this kind of seamless relationship so that overall we 
can deal with this huge backlog. It is a problem, we have 
recognized it as a problem, and I can tell you we are doing 
everything possible to try to see if we can confront it.
    Mr. Benishek. Are your staff talking every day then?
    Secretary Shinseki. Yes, they are. They are. When we say 
backlog here, there are about two or three transition programs 
from DOD to VA. We have IDES that most of us are familiar with, 
which is primarily a transitioning of seriously wounded and 
injured folks out of uniform and then to veteran status with 
us. That is only about 7 percent of the people leaving the 
military. We have two other programs called Benefits Delivery 
at Discharge and Quick Start, again transitioning individuals 
out of the military to us. Together those two programs account 
for maybe 6 percent of the number of folks leaving the 
military. So the vast majority is this large discussion of 
backlog that I was responding to Mr. Stearns on. And part of 
that backlog is created by decisions we have made and that we 
have testified to. Agent Orange, combat PTSD, Gulf War illness, 
all the right decisions. But understand that that creates a 
volume of claims. We are going to be better able to deal with 
it as we get automation in place. So that is an important step. 
We need to get that program funded and hold onto IT funding 
dollars that we have testified to.
    The second piece of this is this collaboration of DOD and 
VA sitting side by side making sure we have warm handoffs. It 
is one thing to know that there are 100,000 people coming out 
next year, but if they all come out on 1 October that is a 
different problem than this being scheduled out over 12 months 
or if they all come out at one location that is different than 
being spread across the country. We will match up, VA will 
match up with whatever the plan is in DOD and that is why this 
collaboration is important.
    Mr. Benishek. Thank you, gentlemen. I see my time is up.
    Mr. Miller. Thank you very much, gentlemen. Thank you for 
being here today, spending 2\1/2\ hours with our two 
committees. We appreciate you being so generous with your time 
to answer some very important questions. I would ask unanimous 
consent that all members would have 5 legislative days to 
revise and extend their remarks. Without objection, so ordered.
    With that, the committee is adjourned.
    [Whereupon, at 12:35 p.m., the committees were adjourned.]


=======================================================================


                            A P P E N D I X

                             July 25, 2012

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 25, 2012

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED
    
    [GRAPHIC] [TIFF OMITTED] 75667.002
    
    [GRAPHIC] [TIFF OMITTED] 75667.003
    
    [GRAPHIC] [TIFF OMITTED] 75667.004
    
    [GRAPHIC] [TIFF OMITTED] 75667.005
    
    [GRAPHIC] [TIFF OMITTED] 75667.006
    
    [GRAPHIC] [TIFF OMITTED] 75667.007
    
    [GRAPHIC] [TIFF OMITTED] 75667.008
    
    [GRAPHIC] [TIFF OMITTED] 75667.009
    
    [GRAPHIC] [TIFF OMITTED] 75667.010
    
    [GRAPHIC] [TIFF OMITTED] 75667.011
    
    [GRAPHIC] [TIFF OMITTED] 75667.012
    
    [GRAPHIC] [TIFF OMITTED] 75667.013
    
    [GRAPHIC] [TIFF OMITTED] 75667.014

    [GRAPHIC] [TIFF OMITTED] 75667.015
    
    [GRAPHIC] [TIFF OMITTED] 75667.016
    
    [GRAPHIC] [TIFF OMITTED] 75667.017
    
    [GRAPHIC] [TIFF OMITTED] 75667.018
    
    [GRAPHIC] [TIFF OMITTED] 75667.019
    
    [GRAPHIC] [TIFF OMITTED] 75667.020
    
    [GRAPHIC] [TIFF OMITTED] 75667.021
    
    [GRAPHIC] [TIFF OMITTED] 75667.022

    [GRAPHIC] [TIFF OMITTED] 75667.023
    
    [GRAPHIC] [TIFF OMITTED] 75667.024
    
    [GRAPHIC] [TIFF OMITTED] 75667.025
    
    [GRAPHIC] [TIFF OMITTED] 75667.026
    
    [GRAPHIC] [TIFF OMITTED] 75667.027
    
    [GRAPHIC] [TIFF OMITTED] 75667.028
    
    [GRAPHIC] [TIFF OMITTED] 75667.029
    
    [GRAPHIC] [TIFF OMITTED] 75667.030
    
    [GRAPHIC] [TIFF OMITTED] 75667.031
    
    [GRAPHIC] [TIFF OMITTED] 75667.032
    
    [GRAPHIC] [TIFF OMITTED] 75667.033
    



=============================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 25, 2012

===============================================================


      RESPONSE TO QUESTION SUBMITTED BY MR. MCKEON AND MR. MILLER

    Secretary Panetta. DOD and VA currently share more clinical data 
than any other two healthcare organizations in the world. However, 
healthcare operations between the Departments are not integrated. The 
DOD and VA have multiple healthcare legacy systems and data stores, 
developed over decades, that must be modernized to enable the 
sustainability, flexibility and interoperability required to improve 
continuity of care. The integrated Electronic Health Record (iEHR) will 
employ a joint platform and service-oriented architecture that is 
standards-based; this will give the Departments the ability to 
integrate healthcare capabilities for streamlined care and benefits 
delivery and an architecture that supports rapid delivery and 
enhancement of new capabilities as needed. The agreements between the 
Departments associated with iEHR have been widely publicized. The 
Departments must balance the need to conduct proper planning for the 
overall effort with a strong desire to field new systems and 
applications as rapidly as possible.
    Effective governance has been established and put in place to 
assist the DOD/VA Interagency Program Office (IPO) in navigating 
Department-specific processes for acquiring IT solutions to ensure iEHR 
does not incur unnecessary delays. Given the need to merge two 
acquisition life cycles, the Departments have acknowledged the need to 
optimally align their processes to ensure agile and cost efficient 
delivery of capabilities to the clinical community. The iEHR is subject 
to the programmatic requirements of both the DOD Business Capability 
Lifecycle (BCL) and the VA Program Management Accountability System 
(PMAS). The IPO, DOD, and VA identified areas where process differences 
may exist, and are collaboratively engaging in efforts to ensure that 
any impediment that may arise is resolved in an efficient manner. The 
IPO leveraged BCL and PMAS to create a Capability Development Life 
Cycle Framework which captures the required documentation and milestone 
decisions for each phase, to include funding and investment decisions.
    The IPO has appropriately placed its initial focus on putting 
critical iEHR infrastructure and services in place. The iEHR requires 
significant work to create a technical framework in which clinical 
capabilities can be incrementally incorporated. Key steps have been 
taken toward achieving the infrastructure upon which the iEHR will be 
built and a master schedule is in place to guide iEHR progress: A 
Service Oriented Architecture (SOA) and Enterprise Service Bus (ESB) 
contract that has been let and those programs are meeting their 
milestones. Use of SOA reduces dependence on proprietary technologies 
and enables the Departments to avoid being ``locked-in'' to a specific 
vendor for a long term, which would hamper ongoing competition and 
stifle innovation.
    Ultimately, the iEHR will unify the two Departments' EHR systems 
into a common system that will ensure that DOD and VA health facilities 
have Service members' and Veterans' health information available 
throughout their lifetime. We anticipate joint use of the iEHR will 
help contain healthcare costs and provide higher value based healthcare 
delivery systems. By implementing a single, common health record for 
DOD and VA medical facilities, the iEHR will ensure that information 
about injuries and illnesses incurred during military service remain 
available for health and benefits purposes throughout a person's 
lifetime, supporting patient safety and continuity of care and 
facilitating access to and delivery of benefits. Seamless information 
sharing is expected to support the expeditious processing of disability 
claims in the future. Further, the iEHR will support the objectives of 
the HIPAA Privacy and Security Rules to ensure that when protected 
health information (PHI) is collected, maintained, used, disclosed or 
transmitted, reasonable and appropriate administrative, physical and 
technical safeguards have been implemented to ensure integrity, 
availability and confidentiality.
    The initial iEHR capabilities, laboratory and immunizations, will 
be delivered to two sites (San Antonio, Texas and Hampton Roads, 
Virginia) by the end of 2014. The capabilities of the iEHR will be 
increased incrementally through the end of 2017. [See page 15.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. MCKEON
    Secretary Panetta. The President's budget makes the necessary 
budget constrictions to avoid devastating the Department through 
sequestration. If sequestration becomes an inevitability, the 
Department will evaluate all options available to comply with the law. 
[See page 14.]
?


=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 25, 2012

=======================================================================


                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. Both DOD and the VA receive funding for spinal cord 
injury treatment, research, and education--the VA through the Office of 
Research and Development, and the DOD specifically through the 
Congressionally Directed Medical Research Program.
    While the programs share a common goal, there are important 
differences. To what extent are spinal cord injury research efforts 
coordinated and shared across Departments?
    Secretary Panetta. Spinal cord injury (SCI) research efforts are 
coordinated and shared across the Departments of Defense and Veterans 
Affairs at several levels. First, DOD and VA jointly sponsor research 
portfolio reviews and analyses (R&A) of major research efforts in 
Traumatic Brain Injury and Psychological Health; Clinical, 
Rehabilitative, and Regenerative Medicine; Combat Casualty Care; 
Military Operational Medicine; Military Infectious Diseases; and Health 
Information Technology and Medical Training. SCI research is covered in 
the Traumatic Brain Injury and Psychological Health, and Clinical, 
Rehabilitative, and Regenerative Medicine R&As. Through this review, 
research gaps are identified for future research investment and 
collaborative DOD/VA research opportunities.
    Second, VA participates in the CDMRP research planning efforts. 
Specifically, VA has co-chaired the SCI Research Program Integration 
Panel for the past two years. Other Panel members are from the VA the 
military Services (Army, Navy, and Air Force), the National Institutes 
of Health (NIH), and academic institutions, the Department of 
Education's National Institute on Disability and Rehabilitation 
Research, and consumer advocacy organizations (Paralyzed Veterans 
Association, United Spinal Association). The SCI panel provides 
strategic direction, screens pre-proposals, recommends proposals for 
funding, identifies research gaps and sets the vision for the coming 
year.
    Mr. Langevin. Secretary Panetta, in today's tepid economy, the DOD 
cannot downsize our forces without ensuring we provide mechanisms and 
programs for the service members to utilize before, during and after 
their transition from the military. In your words, what is the single 
most important role the DOD can play to assist these warriors in 
transition?
    Secretary Panetta. The Department's most important role is to 
prepare our Service members to become successful civilian citizens in 
their communities. We do this through a re-designed transition 
assistance program that focuses on providing all Service members with 
the appropriate tools needed to succeed. These tools include a 
crosswalk between military service and civilian experience; financial 
planning seminar; information about Department of Veterans Affairs (VA) 
benefits, and the Department of Labor employment workshop. The 
transition assistance program provides a transitioning Service member 
with a tangible product such as a budget, resume, listing of civilian 
careers that match military service experience and the practical 
application of how to apply for education benefits, home loans, 
disability (benefits, as appropriate) and experience in interviewing 
and searching for jobs. Using these tools along with the support from 
our interagency partners will result in the smooth transition from 
Service member to civilian.
    Mr. Langevin. Both DOD and the VA receive funding for spinal cord 
injury treatment, research, and education--the VA through the Office of 
Research and Development, and the DOD specifically through the 
Congressionally Directed Medical Research Program.
    While the programs share a common goal, there are important 
differences. To what extent are spinal cord injury research efforts 
coordinated and shared across Departments?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
    Mr. Langevin. The suicide rate for both service members and 
veterans is rising at an alarming rate, what is the VA doing to address 
this tragic rise today and what are your plans to address this trend in 
the future?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. Has VA measured how effective the VA National PTSD 
Center's numerous webinars and training sessions are for promoting 
among providers safer drug treatments for veterans experience PTSD? How 
many providers use those webinars and training sessions? Is this a 
number of providers that is satisfactory to VA and DOD? Has VA and DOD 
seen a change yet in PTSD treatment plans following these webinars and 
trainings? Are DOD and VA prepared to measure how effective the 
sessions are?
    Secretary Panetta. The Under Secretary for Health of the Department 
of Veterans Affairs and the Assistant Secretary of Defense for Health 
Affairs signed a formal Memorandum of Understanding (MOU) in March 2012 
to facilitate collaboration, coordination, and evaluation of training 
courses and programs in both Departments. DOD encourages providers to 
utilize all government resources when meeting continuing education 
requirements for medical professionals.
    Although DOD has not specified a target number of providers to 
participate in VA webinars, the new MOU can be used to further develop 
methods to increase DOD and VA webinar participation as well as efforts 
to develop a formalized method to assess the impact on provider 
practice.
    DOD has also partnered with VA via the Integrated Mental Health 
Strategy (IMHS) to improve collaboration related to provider training 
and webinars. In addition, DOD has begun to develop processes to 
measure effectiveness and changes in PH treatment outcomes after best 
practice implementation across the Military Health System.
    Mr. Cooper. A July 13, 2012, IOM study noted that PTSD screening, 
treatment, and rehabilitation services should be done ``in different 
populations of active-duty personnel and veterans.'' Does VA and DOD 
know of PTSD studies performed on active-duty service men and women, 
and/or military veterans? How numerous and how comprehensive have those 
studies been? That recent IOM study goes on to recommend that ``the DOD 
and the VA should coordinate, evaluate, and review these [active-duty 
personnel and veteran study] efforts continually and routinely and 
should disseminate the findings widely.'' How is the VA and DOD 
disseminating treatment findings now? How can they disseminate best 
practice treatment findings now? Would the EHR or drug formulary be 
helpful in doing this? Is there any incentive in place for VA and DOD 
providers to share, consult with, and use best practices found in other 
VA facilities?
    Secretary Panetta. There have been over 1,500 studies related to 
Active Duty military with PTSD, and 3,000 studies related to veterans 
with PTSD, completed since 1980. DOD has allocated significant 
resources dedicated to fund ongoing comprehensive PTSD research focused 
on the effectiveness of prevention, screening, treatment, and 
rehabilitation programs for Service members. PTSD research is also in 
progress through multiple military research institutions, to include 
the Armed Forces Health Surveillance Center, the Army Medical and 
Materiel Research Command, the Walter Reed Army Institute of Medicine, 
the Deployment Health Clinical Center, the Center for the Study of 
Traumatic Stress, and the Naval Health Research Center. These entities 
share their findings through annual reports posted on websites, 
publications in scientific journals, presentations at professional 
conferences, and various public forums. The VA/DOD Integrated Mental 
Health Strategy (IMHS) has specific task groups working to develop 
processes to rapidly translate research and move innovative programs 
into practice.
    DOD findings are translated into clinical practice via formal and 
informal PTSD training programs as well as clinical practice 
guidelines, recommendations, and support tools. For example, the Center 
for Deployment Psychology (CDP) is a DOD resource that trains mental 
health providers in evidence-based psychotherapies for PTSD. To date, 
CDP has trained approximately 6,700 mental health providers to deliver 
evidence-based psychotherapies for PTSD. There are also provider on-
line training courses that are hosted through DOD, such as the Military 
Health System Learning Portal and the Center for Deployment Psychology. 
The Army Medical Command's Office of Quality Management provides tools 
to assist providers to follow the VA DOD Clinical Practice Guideline 
for Management of Post-traumatic Stress.
    DOD's National Center for Telehealth and Technology (T2), a 
Component Center of the Defense Center of Excellence for Psychological 
Health and Traumatic Brain Injury (DCoE), has developed products to 
inform providers, Service members, and their families about evidence-
based practices for the treatment of PTSD, to include smart phone 
applications that assist patients and providers to follow evidence-
based practices. T2 also designed innovative, state-of-the-art virtual 
delivery systems to increase the availability of evidence-based PTSD 
treatment. Further, DOD has multiple postgraduate education, 
internship, and fellowship behavioral health training programs for new 
accessions that require students to be trained in evidence-based 
Psychological Health (PH) practices.
    The electronic health record (EHR) will continue to be an important 
dissemination tool for PH treatment best practices, and DOD is 
positioned to further leverage the EHR to develop and implement 
standard PH practice guidelines, to include PTSD guidelines. For 
example, DOD currently uses an application in the EHR to inform primary 
care providers about medication best practices related to PTSD; the 
application has been used to treat over 30,000 patients. DOD recognizes 
that pharmacists in the Military Health System can help further improve 
psychiatric medication standard of care, and created a policy 
memorandum from February 22, 2012 entitled ``Guidance for Providers 
Prescribing Atypical Antipsychotic Medication.'' This memorandum 
suggests that Military Treatment Commanders work with their Pharmacy 
and Therapeutics Committee to monitor providers and their compliance 
with best practices related to use of medication for PTSD treatment.
    DOD ensures evidence-based and best practice treatment skills are 
integrated into care as part of the health care appraisal system, 
including a peer review process to ensure the highest standard of care 
is met. In addition, hospitals are motivated to use best practices that 
decrease care costs and maximize treatment outcomes through various 
means.
    Mr. Cooper. Do DOD and VA plan to create ``an evidence base to 
guide the integration of treatment for comorbidities with treatment for 
PTSD?'' How do you plan to encourage that kind of research?
    Secretary Panetta. DOD has already provided an evidence-based guide 
that helps providers manage co-occurring conditions, the ``Co-occurring 
Conditions Toolkit: Mild Traumatic Brain Injury and Psychological 
Health.'' This toolkit, based on scientific evidence, was developed to 
help primary care providers better assess and manage patients with 
psychological health and TBI conditions. In formulating these guides, 
knowledge gaps were identified to inform future research. In addition, 
DOD has funded over 30 studies related to treatment of PTSD and 
comorbid diagnoses (TBI, sleep disorders, alcohol and substance use 
disorders, anxiety, depression, and suicide). The results from these 
studies will further our knowledge in improving diagnosis and treatment 
of these conditions.
    In addition, DOD partners with other research institutes. For 
example, STRONG STAR (The South Texas Research Organizational Network 
Guiding Trauma and Resilience) is a multidisciplinary, multi-
institutional research consortium funded by the DOD's Psychological 
Health and TBI Research Program. Their research includes the 
investigation of PTSD treatment with co-occurring disorders that 
include chronic pain, alcohol use, and insomnia.
    DOD creates research opportunities annually in the areas of 
traumatic brain injury and psychological health through the release of 
Program Announcements that describe the program of interest and the 
research need, the purpose and objectives, submission information, 
application review procedures, award administrative information, agency 
contacts, and time lines for submission and reviews. Program 
Announcements are posted on grants.gov for open and fair competition 
and submissions are received electronically.
    Mr. Cooper. Have DOD and VA identified PTSD treatment practices 
that are usually ineffective in active-duty service men and women and 
veterans?
    Secretary Panetta. DOD and VA published the VA DOD Clinical 
Practice Guideline for the Management of Post-Traumatic Stress in 2010. 
This guideline is based on thorough reviews of scientifically published 
evidence of Posttraumatic Stress Disorder treatments, including 
psychotherapy, medication, and complementary and alternative medicine 
interventions. This guideline includes an extensive discussion about 
treatments that have been found to be effective, found to be 
ineffective, have yet to be established as either effective or 
ineffective, or have found to be potentially harmful. A copy of the 
guideline is available at:
    http://www.healthquality.va.gov/
Post_Traumatic_Stress_Disorder_PTSD.asp
    Mr. Cooper. Approximately what percentage of the experts who put 
together the VA/DOD Clinical Practice Guideline for Management of Post-
Traumatic Stress have first-hand experience with treating veterans or 
active-duty personnel with prescription drugs? How much are those 
guidelines based on studies done in active-duty personnel and veterans?
    Secretary Panetta. Twenty one of the thirty-two DOD and VHA members 
of the Working Group for the 2010 revision of the VA/DOD Clinical 
Practice Guideline for the Management of Post-Traumatic have first-hand 
experience as prescribers. All of the members have experience treating 
veterans and active-duty personnel. A full list of members of this 
working group is found on page 10 of the Guideline (see below footnote 
for link).
    The Guidelines were based on literature and empirical findings 
specific to--and most relevant to--treatment of active duty Service 
members and veterans. The Introduction section of the Guideline 
provides an excellent overview of the criteria and standards used in 
the review of literature.
    Mr. Cooper. A July 13, 2012, Institute of Medicine study 
recommended that ``to study the efficacy of treatment and to move 
toward measurement-based PTSD care in the DOD and the VA, assessment 
data should be collected before, during, and after treatment and should 
be entered into patients' medical records. This information should be 
made accessible to researchers with appropriate safeguards to ensure 
patient confidentiality.'' How quickly can the VA and DOD put this 
recommendation into practice? What are the barriers to beginning to do 
this and how substantial are those barriers if they exist?
    Secretary Panetta. Assessment data is already collected before, 
during, and after treatment and entered into patients' medical records. 
The administration of standardized and validated PTSD clinical 
screening tools that are often used in research (e.g., the PTSD 
Checklist) is endorsed by the DOD for use when a Service member might 
benefit from further clinical evaluation or in monitoring treatment 
response. No standardized screening or assessment tool is available 
that can replace a comprehensive clinical interview that assesses the 
full spectrum of both PTSD and non-PTSD symptoms within broader social 
and occupational contexts. The DOD standard of care is that all data, 
inclusive of clinical assessment measures, becomes a part of the 
Service member's healthcare record.
    There are no inherent barriers to access of these records for 
research. Access to the use of TRICARE Management Activity (TMA) owned 
or managed data is subject to patient protections, privacy safeguards, 
and other research protocols mandated by law and implemented by 
institutional review boards and obtained through a formal agreement 
with TMA for sharing and use of data elements. The TMA Privacy and 
Civil Liberties Office (TMA Privacy Office) manages the data sharing 
agreement program and research protection program.
    The Department of Defense (DOD), Office of the Assistant Secretary 
of Defense (Health Affairs) (OASD[HA]) and the TRICARE Management 
Activity (TMA) support and encourage research, including human subject 
research. The Department of Defense (DOD) invests in Psychological 
Health (PH) research and the largest portion of the PH portfolio is 
directed toward PTSD. Out of the 225 current research projects in the 
PH portfolio, 162 focus on PTSD including studies specific to examining 
efficacy of treatment for PTSD and studies that focus on evidence-based 
long-term recovery protocols to decrease recurrence of PTSD symptoms.
    Recently, the Department in collaboration with the VA announced the 
creation of two research consortia one of which is focused on PTSD. The 
Consortium to Alleviate PTSD (CAP) Award will consist of a Coordinating 
Center and multiple Study Sites, and will be supported through this 
DOD/VA collaborative research effort. The primary purpose of the 
collaborative DOD/VA Consortium will be to improve the health and well-
being of Service Members (Active Duty, National Guard, and Reservist) 
and Veterans, with the most effective diagnostics, prognostics, novel 
treatments, and rehabilitative strategies to treat acute PTSD and to 
prevent chronic PTSD. Key priorities of this Consortium are elucidation 
of factors that influence the different trajectories (onset/
progression/duration) of PTSD and associated chronic mental and 
physical sequelae (including depression, anger/aggression, and 
substance use/abuse, etc.) and identification of measures for 
determining who is likely to go on to develop chronic PTSD. The 
Consortium will therefore work to improve prognostics, advance 
treatments, and mitigate negative long-term consequences associated 
with traumatic exposure.
    Mr. Cooper. In general, how does VA and DOD get evidence based 
medical information out to be used systematically throughout the 
systems? Is there a good example of a best practice being widely 
disseminated and used?
    Secretary Panetta. There are many points for wide dissemination of 
evidence-based medical information. A few are listed below:
    <bullet>  The DOD has central website for wellness resources for 
the military community at http://www.afterdeployment.org/. An adjunct 
program to this website has just been opened as a centralized 
information mart for providers at http://www.afterdeployment.org/
providers/home. It includes continuing education materials, mobile 
applications, patient educational resources, libraries, briefings and 
quick links to the DOD/VA Clinical Practice guidelines.
    <bullet>  The DOD/VA Clinical Practice Guidelines are available at 
http://www.
healthquality.va.gov/index.asp.
    <bullet>  PDHealth.mil at http://www.pdhealth.mil/main.asp provides 
a gateway to information on deployment health and healthcare for 
healthcare providers, service members, veterans, and families. It was 
designed to assist clinicians in the delivery of post-deployment 
healthcare by fostering a partnership between service members, 
veterans, families, and healthcare providers.
    <bullet>  Up-to-date and current information pertaining to research 
and best practices is available through the Combat & Operational Stress 
Research Quarterly published by the Navy (www.nccosc.navy.mil or direct 
link @ http://bit.ly/wnadBm) and the Deployment Health Clinical Center 
newsletter dispatched daily by email.
    <bullet>  The Department of Defense also disseminates evidence 
based information pertaining to practice, responsibilities, and 
requirements through the publication of Directives, Instructions and 
Guidance Memorandums.
    The clinical practice guideline titled ``Management of Post-
Traumatic Stress Disorder and Acute Stress Reaction (2010)'' posted on 
the DOD/VA Clinical Practice Guidelines home page is an excellent 
example of a best practice that is widely disseminated and used.
    Mr. Cooper. Has evidence based psychotherapy been evaluated in 
active-duty service men and women with PTSD?
    Secretary Panetta. There are many points for wide dissemination of 
evidence-based medical information. A few are listed below:
    <bullet>  The DOD has central website for wellness resources for 
the military community at http://www.afterdeployment.org/. An adjunct 
program to this website has just been opened as a centralized 
information mart for providers at http://www.afterdeployment.org/
providers/home. It includes continuing education materials, mobile 
applications, patient educational resources, libraries, briefings and 
quick links to the DOD/VA Clinical Practice guidelines.
    <bullet>  The DOD/VA Clinical Practice Guidelines are available at 
http://www.
healthquality.va.gov/index.asp.
    <bullet>  PDHealth.mil at http://www.pdhealth.mil/main.asp provides 
a gateway to information on deployment health and healthcare for 
healthcare providers, service members, veterans, and families. It was 
designed to assist clinicians in the delivery of post-deployment 
healthcare by fostering a partnership between service members, 
veterans, families, and healthcare providers.
    <bullet>  Up-to-date and current information pertaining to research 
and best practices is available through the Combat & Operational Stress 
Research Quarterly published by the Navy (www.nccosc.navy.mil or direct 
link @ http://bit.ly/wnadBm) and the Deployment Health Clinical Center 
newsletter dispatched daily by email.
    <bullet>  The Department of Defense also disseminates evidence 
based information pertaining to practice, responsibilities, and 
requirements through the publication of Directives, Instructions and 
Guidance Memorandums.
    The clinical practice guideline titled ``Management of Post-
Traumatic Stress Disorder and Acute Stress Reaction (2010)'' posted on 
the DOD/VA Clinical Practice Guidelines home page is an excellent 
example of a best practice that is widely disseminated and used.
    Mr. Cooper. Has VA measured how effective the VA National PTSD 
Center's numerous webinars and training sessions are for promoting 
safer drug treatments for veterans experience PTSD? How many providers 
use those webinars and training sessions? Is this a number of providers 
that is satisfactory to VA and DOD? Has VA and DOD seen yet a change in 
treatments following these webinars and trainings? Are they prepared to 
measure how effective the sessions are?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
    Mr. Cooper. A July 13, 2012, IOM study noted that PTSD screening, 
treatment, and rehabilitation services should be done ``in different 
populations of active-duty personnel and veterans.'' Does VA and DOD 
know of PTSD studies performed on active-duty service men and women, 
and/or military veterans? How numerous and how comprehensive have those 
studies been? That recent IOM study goes on to recommend that ``the DOD 
and the VA should coordinate, evaluate, and review these [active-duty 
personnel and veteran study] efforts continually and routinely and 
should disseminate the findings widely.'' How is the VA and DOD 
disseminating treatment findings now? How can they disseminate best 
practice treatment findings now? Would the EHR or drug formulary be 
helpful in doing this? Is there any incentive in place for VA and DOD 
providers to share, consult with, and use best practices found in other 
VA facilities?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
    Mr. Cooper. Do DOD and VA plan to create ``an evidence base to 
guide the integration of treatment for comorbidities with treatment for 
PTSD?'' How do you plan to encourage that kind of research?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
    Mr. Cooper. Have DOD and VA identified PTSD treatment practices 
that are usually ineffective in active-duty service men and women and 
veterans?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
    Mr. Cooper. Approximately what percentage of the experts who put 
together the VA/DOD Clinical Practice Guideline for Management of Post-
Traumatic Stress have first-hand experience with treating veterans or 
active-duty personnel with prescription drugs? How much are those 
guidelines based on studies done in active-duty personnel and veterans?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
    Mr. Cooper. As Secretary Shinseki mentioned, the VA has ``a pretty 
comprehensive record of who to treat [for PTSD, TBI, substance abuse, 
sexual assaults] and then [the VA] sets about treating them.'' If this 
is the case, is how these veterans are treated for PTSD, tracked at 
all? Does the VA know for a fact which treatments are given most 
frequently to veterans with PTSD and in what combination? Do these 
treatments match up with what evidence there is for the most effective 
way to treat these veterans? Has either the VA or DOD studied patterns 
in treatment of PTSD in active-duty personnel and veterans?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
    Mr. Cooper. A July 13, 2012, Institute of Medicine study 
recommended that ``to study the efficacy of treatment and to move 
toward measurement-based PTSD care in the DOD and the VA, assessment 
data should be collected before, during, and after treatment and should 
be entered into patients' medical records. This information should be 
made accessible to researchers with appropriate safeguards to ensure 
patient confidentiality.'' How quickly can the VA and DOD put this 
recommendation into practice? What are the barriers to beginning to do 
this and how substantial are those barriers if they exist?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
    Mr. Cooper. In general, how does VA and DOD get evidence based 
medical information out to be used systematically throughout the 
systems? Is there a good example of a best practice being widely 
disseminated and used?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. If we are to create a joint medical electronic 
records system, where all services including the VA will be using it at 
the same time, what will be different about this system that will 
prevent the system from running slow during peak hours or crashing in 
the middle of a heavy patient appointment schedule?
    Secretary Panetta. Systems Engineering and Testing will be 
conducted throughout the development and deployment of the integrated 
Electronic Health Record (iEHR) to ensure the system is stable and 
reliable in production environments. Network capacity planning will be 
performed and performance measures will be validated. The Development 
and Test Center/Environment (DTC/DTE), which consists of a set of 
systems, software, network, and test tools will be utilized throughout 
the system life cycle for continuous test and evaluation of system 
performance.
    Ms. Bordallo. Aside from the efficiencies a joint electronic 
medical record system will create, could you share some of the other 
benefits this system will produce as a byproduct?
    Secretary Panetta. The ultimate benefit the integrated Electronic 
Health Record (iEHR) will be improved quality of healthcare for our 
Service members and Veterans. The iEHR's close coupling with the VLER 
Health information exchange initiatives will accelerate the ability for 
DOD and VA healthcare providers to exchange information with other 
federal and private industry partners about patients they collectively 
care for.
    <bullet>  Patient-Centered Care: Patients will have a comprehensive 
and transportable medical profile that will support seamless transition 
of care between DOD and VA treatment facilities--as well as private 
providers. The iEHR will promote and facilitate an empowered patient, 
healthcare staff, and patient-centric approach, that will support 
healthcare information technology (HIT) systems that foster the 
delivery of effective, efficient, safe, and quality patient care.
    <bullet>  Precision of Care: Enhanced Clinical Decision Support 
(CDS) tools enabled by the iEHR will increase the precision of care 
delivered/received by providing access to comprehensive patient data 
and increased information exchange capabilities among providers that 
would otherwise not be available.
    <bullet>  More Time with Patients: Healthcare providers will be 
able to spend more time with their patients instead of searching for 
their data and signing on to multiple systems.
    <bullet>  Personal Health Records: Promoting partnership between 
healthcare team members and patients through an empowered patient care 
model for delivery of high quality medical care that engages patients 
in the healthcare process.
    <bullet>  Improve Quality of Care per Dollar Spent: Improving 
clinical outcomes while creating cost efficiencies in both workforce 
and IT life cycle costs.
    <bullet>  Population Health: Access to quality population health 
data and analytic tools will result in cost efficiencies and improved 
preventative healthcare. For example, insight into the number of 
diabetics who have not had their H1Cs done could inform a patient 
outreach program that have been shown to result in a reduction in 
amputations.
    <bullet>  Innovation: Promote innovations in technology and product 
research that support the delivery of quality healthcare and improved 
patient outcomes.
    <bullet>  Maturity of International HIT Standards: As the largest 
healthcare network in the world encouraging open solutions, the iEHR 
will be a driving force in the maturation of HIT standards improving 
the quality and landscape of HIT solutions available in the market.
    <bullet>  Interagency Collaboration Center of Excellence: The scale 
and scope of this effort provides the opportunity set the standard and 
influence policy for large scale interagency collaboration activities 
moving forward.
    Ms. Bordallo. What efforts are underway to improve the electronic 
delivery of information from DOD to VA and vice versa to improve 
benefits and health care delivery to service members and veterans? 
Additionally, can either witness discuss what is being done to develop 
a joint electronic medical records system. It's my understanding that 
each service including the VA currently operates a separate system and 
there is very little cross service functionality between any of the 
systems so how will you achieve cross-functionality and how do we 
improve the slow processing of the systems currently in place?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
    Ms. Bordallo. If we are to create a joint medical electronic 
records system, where all services including the VA will be using it at 
the same time, what will be different about this system that will 
prevent the system from running slow during peak hours or crashing in 
the middle of a heavy patient appointment schedule?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
    Ms. Bordallo. Aside from the efficiencies a joint electronic 
medical record system will create, could you share some of the other 
benefits this system will produce as a byproduct?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. Reports show that suicide rates among veterans, 
especially combat veterans, have increased over the past several years. 
Furthermore, studies have shown a correlation between people of faith 
and lower rates of suicide. Therefore, I'm concerned by reports 
indicating that the military is censoring religious references and 
symbols beyond Constitutional requirements. How is religion being 
incorporated into suicide prevention, and does the military's extra-
Constitutional censorship of religion support your departments' suicide 
prevention efforts?
    Secretary Panetta. Suicide and the prevention thereof is one of the 
most vexing and important challenges the Department faces and we are 
committed to using every means available to assist our Service members 
and their families. Progress on this crucial issue will require a 
multi-functional and multi-faceted approach and our Chaplains fulfill a 
vital role in lending assistance to commanders, troops, and families in 
need. The Chaplaincies of the Military Departments are established to 
advise and assist commanders, troops, and families in the free exercise 
of religion in the context of military service as guaranteed by the 
Constitution. Our Chaplains serve a religiously diverse population and 
provide comprehensive religious support to all who seek it.
    The Department does not censure religious support. Indeed, all of 
the Military Departments have, over the course of the last several 
years, placed increased emphasis upon holistic efforts aimed at 
improving every aspect of fitness. This emphasis with a view toward the 
total comprehensive fitness of the force recognizes the vital component 
faith serves in the lives of many of our military families.
    Mr. Franks. Reports show that suicide rates among veterans, 
especially combat veterans, have increased over the past several years. 
Furthermore, studies have shown a correlation between people of faith 
and lower rates of suicide. Therefore, I'm concerned by reports 
indicating that the military is censoring religious references and 
symbols beyond Constitutional requirements. How is religion being 
incorporated into suicide prevention, and does the military's extra-
Constitutional censorship of religion support your departments' suicide 
prevention efforts?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK
    Mr. Loebsack. What specific steps are the Department of Defense and 
the Department of Veterans Affairs taking to coordinate transition 
assistance and benefits for members of the National Guard and Reserve 
transitioning from Active Duty service back to civilian jobs and 
civilian life? How are the Departments coordinating to ensure members 
of the Reserve Component are aware of the DOD and VA benefits available 
to them?
    Secretary Panetta. In order to coordinate transition assistance and 
benefits for members of National Guard and Reserve transitioning from 
active duty to civilian life, DOD has worked with thje Department of 
Veterans Affairs, Department of Homeland Security, Department of 
Education and Office of Personnel Management over the last year to 
redesign the Transition Assistance Program (includes eligible National 
Guard and Reserve Service members).
    All eligible National Guard and Reserve Service members will 
receive transition assistance, which includes Pre-separation Counseling 
and VA Benefits Briefing. They will also be afforded the opportunity to 
register for their eBenefits account as well as the opportunity to 
either sign up for VA benefits to which they may be entitled and/or 
schedule a one-on-one appointment with a VA representative to submit 
applications for benefits.
    In addition, the VOW to Hire Heroes Act requires all eligible 
National Guard and Reserve members to participate in the re-designed 
Department of Labor Employment Workshop (except those with exemptions).
    Finally, the Transition GPS (Goals, Plans, Success) includes a CORE 
Curriculum which consists of the following modules and topics: 
Transition Overview, Considerations for Families, Special Issue, Value 
of a Mentor, Military Occupational Code (MOC) Crosswalk, and a 
Financial Management Seminar. The Transition GPS also includes three 
tracks (Education, Career Technical Training, and Entrepreneurship) 
which are in addition to the CORE curriculum. The track they select is 
based on their personal needs and goals.
    Furthermore, the DOD's Yellow Ribbon Reintegration Program (YRRP) 
provides National Guard and Reserve Service members and their families 
with critical support throughout the entire deployment cycle (pre- 
during and post-), easing transitions as Service members move between 
their military and civilian roles. Post-deployment activities are 
specially focused on reintegration into the family, community and 
workforce, providing information and resources through local and state 
agencies, military transition assistance, and other military-related 
non-profit organizations. On-site assistance with enrollment and other 
benefits is included in all YRRP activities, with follow-up 
capabilities offered for those Service members with more long-term 
needs.
    Mr. Loebsack. What specific steps are the Department of Defense and 
the Department of Veterans Affairs taking to identify service members 
transitioning to civilian life who require Post Traumatic Stress, 
Traumatic Brain Injury, or mental health care? How are the Departments 
ensuring that these service members do not fall through the cracks as 
they transition between the DOD and VA health systems? What steps are 
being taken to ensure that transitioning service members and their 
families are aware of the suicide prevention resources available to 
them?
    Secretary Panetta. For those Service members transitioning to 
civilian life who require Post Traumatic Stress Disorder (PTSD), 
Traumatic Brain Injury (TBI), or mental health care for other 
identified mental health conditions, the DOD ensures proper treatment 
and successful transition to civilian life through care coordination 
and transition assistance services through the following policies and 
practices:
    <bullet>  The Military Departments have engineered clinical case 
management services and practices for aspects of care within the 
Military Health System (MHS), particularly as it relates to the care of 
the wounded, ill or injured (WII) Service members. Directive-Type 
Memorandum (DTM) 08-033, ``Interim Guidance for Clinical Case 
Management for the Wounded, Ill, and Injured Service Member in the 
Military Health System'' was initially published in 2009 and updated in 
2012. This guidance delineates the requirements for the implementation 
of clinical case management in the MHS and established MHS medical and 
clinical policies and procedures for WII care.
    <bullet>  In 2011, DOD published policy, ``Continuity of Behavioral 
Health Care for Transferring and Transitioning Service Members,'' which 
prescribes guidelines that ensure continuity of care for Service 
members transferring to a new duty station or transitioning out of the 
Service. This policy directs the Military Services to develop policies 
for transfer of behavioral health care from military to civilian 
providers, including VA providers. When a separating Service member 
provides consent for sharing information with a follow-on behavioral 
health provider, DOD shares all relevant clinical information. This 
includes diagnoses, medications, treatment history including suicide 
risk, test results, treatment plans and prognosis. Service members' 
treatment record information is available to VA providers via the 
Bidirectional Health Information Exchange.
    <bullet>  DOD's inTransition program provides a telephonic coach 
for transitioning Service members with behavioral health issues, 
whether that is in the VA health care system, the Military Health 
System, TRICARE, or the community. The inTransition program has opened 
thousands of coaching cases since its inception in February 2010. The 
acceptance rate for service members referred to the program since 
inception exceeds 95%.
    <bullet>  The VA Liaison for Healthcare, a social worker or nurse 
strategically placed at an MTF with recovering service members 
returning from Afghanistan, is another asset. 33 Liaisons for 
Healthcare are stationed at 18 MTFs, helping transition ill and injured 
Service members from DOD to the VA system of care. Thousands of health 
care transitions have been coordinated.
    For individuals who have suffered a traumatic brain injury:
    <bullet>  The Defense Veterans Brain Injury Center (DVBIC) Regional 
Care Coordinator (RCC) program provides a nationwide care coordination 
network for Service members with TBI. This program facilitates 
transition from the DOD to VA care by working with VA case management 
teams.
    <bullet>  For Service members with more severe brain injuries, a 
DOD-VA Polytrauma Telehealth Network connects the current DOD treating 
team with the accepting treating team in the VA. This facilitates 
transfer planning, affords families an opportunity to meet care teams 
and ensures that medical records are transferred between facilities.
    <bullet>  DOD and VA work together on a Congressionally-mandated 
five year pilot program which assesses the effectiveness of providing 
assisted living services to Service members and Veterans with TBI who 
require ongoing care in the community. VA collaborated with the DVBIC 
on a family caregiver panel to develop a uniform training curriculum 
for family members in providing care and assistance.
    TRICARE Regional Offices have VA Liaisons who serve as 
intermediaries between VA facilities and the TRICARE regional 
contractors. VA Liaisons actively assist with authorizations and 
claims, and TRICARE contractors hold monthly calls with the VA's 
Medical Sharing Office to review the cases of active duty Service 
members who are receiving joint VA/DOD care.
    At each point of contact in these chain of transition events and 
post-active duty follow-on (e.g., the periodic health assessments, 
post-deployment screening, and yellow ribbon events), assessment for 
the potential for suicide occurs and information regarding suicide 
prevention and other helping resources are made available. In addition, 
Service and VA Mental Health and suicide prevention coordinators, 
suicide hotlines (VA and DOD), we have Military OneSource are available 
resources.
    The DOD-VA Integrated Mental Health Strategy includes actions 
specifically focused on transition and continuity of behavioral health 
care. DOD will continue to work with VA in implementation of our 
policies regarding transition and continuity of behavioral health and 
TBI care. We will ensure our providers address transition of behavioral 
health care for wounded warriors to VA and other civilian providers, 
and will continue to manage the important issues of suicide risk, 
occupational impairment, and PTSD.
    Mr. Loebsack. I have held multiple veterans forums across my 
District and have heard time and again from Iowa veterans that they are 
deeply frustrated by the time it takes to process their disability 
claims. The Integrated Disability System was meant to integrate the DOD 
and VA disability evaluation processes. What steps are being taken to 
improve IDES? Do additional steps need to be taken to standardize and 
streamline the disability evaluation process and improve DOD and VA 
collaboration?
    Secretary Panetta. The Departments collaborate closely on efforts 
to jointly refine and improve the IDES. In FY 2012, major efforts in 
this area included:
    <bullet>  The Military Departments significantly increased IDES 
staff levels in FY2012. DOD added authorizations for over 1,500 case 
managers, administrative assistants, and lawyers over the next four 
fiscal years to improve case processing timeliness and customer 
service. Additionally, each of the Services is increasing efforts to 
hire and retain physicians, particularly behavioral or mental health 
professionals. We expect to see process improvements during FY2013.
    <bullet>  In April 2012, the Secretary of Defense and Secretary of 
Veterans Affairs directed their Departments to implement a paperless, 
searchable claims file for the Integrated Disability Evaluation System 
(IDES). The Departments created an electronic case file transfer 
capability for IDES cases as an interim step towards that objective. 
The Departments initiated a pilot test of that capability at 11 
locations in September 2012. The Departments will decide whether to 
field the electronic case file transfer capability in January 2013.
    <bullet>  In June 2012, VA released version 2.0 of the Veterans 
Tracking Application (VTA). This version incorporated operational 
reports that improved IDES case oversight capabilities. Additionally, 
DOD developed and fielded case tracking tools that enable installation-
level visibility of case duration and data errors.
    <bullet>  A DOD IDES Task Force, comprised of senior leaders from 
the Department, conducted an end-to-end business process review of the 
IDES and, as of October 2012, is preparing recommendations for 
additional improvements for the Secretary of Defense.
    Mr. Loebsack. What specific steps are the Department of Defense and 
the Department of Veterans Affairs taking to coordinate transition 
assistance and benefits for members of the National Guard and Reserve 
transitioning from Active Duty service back to civilian jobs and 
civilian life? How are the Departments coordinating to ensure members 
of the Reserve Component are aware of the DOD and VA benefits available 
to them?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
    Mr. Loebsack. What specific steps are the Department of Defense and 
the Department of Veterans Affairs taking to identify service members 
transitioning to civilian life who require Post Traumatic Stress, 
Traumatic Brain Injury, or mental health care? How are the Departments 
ensuring that these service members do not fall through the cracks as 
they transition between the DOD and VA health systems? What steps are 
being taken to ensure that transitioning service members and their 
families are aware of the suicide prevention resources available to 
them?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
    Mr. Loebsack. I have held multiple veterans forums across my 
District and have heard time and again from Iowa veterans that they are 
deeply frustrated by the time it takes to process their disability 
claims. The Integrated Disability System was meant to integrate the DOD 
and VA disability evaluation processes. What steps are being taken to 
improve IDES? Do additional steps need to be taken to standardize and 
streamline the disability evaluation process and improve DOD and VA 
collaboration?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. KISSELL
    Mr. Kissell. What is the possibility of getting VA and DOD medical 
records electronically available for civilian medical venues? How and 
when might this be implemented?
    Secretary Panetta. One important goal of the integrated electronic 
health record (iEHR) is to maximize the information exchanged among DOD 
and VA health providers and private providers via bilateral 
communications and health information sharing. Specifically, the IPO is 
continuing to develop the Virtual Lifetime Electronic Record (VLER) 
Health program that enables the exchange of electronic medical data 
with the private sector. For example, under VLER Health, a private 
sector provider or hospital can request electronic health data from the 
DOD or VA, and the Departments can securely provide that information 
back to the requesting party. This exchange is governed by the Data Use 
and Reciprocal Support Agreement (DURSA) developed by the Office of the 
National Coordinator (ONC) at Health and Human Services (HHS). ONC is 
also responsible for the development of the infrastructure that 
supports this exchange. This infrastructure is called the Nation-wide 
Health Information Network (NwHIN), and the DOD and VA have been 
actively engaged in its development. Through the DOD's and VA's 
participation in the NwHIN, the departments will be able to exchange 
electronic health data in a secure and trusted way with private 
healthcare entities.
    VLER Health capability has been demonstrated at 4 joint DOD/VA 
sites, and at 11 other VA sites as part of the VLER Health 
demonstrations. Recently, the Joint Executive Committee (JEC) has 
approved the further deployment of VLER Health at sites that meet 
criteria that ensures its effective implementation: where there are 
large numbers of beneficiaries using private sector care, where the 
state Health Information Exchanges (HIEs) are mature, where the private 
sector has electronic medical records, and where the beneficiaries have 
``opted-in'' to the program. These exchanges will continue to grow over 
the life of the iEHR.
    Mr. Kissell. What is the possibility of getting VA and DOD medical 
records electronically available for civilian medical venues? How and 
when might this be implemented?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. Please advise of the contractor that developed and 
currently maintain DOD's electronic health records system and the 
contractor that developed and currently maintain the VA's electronic 
health records system. Are either of these contractors developing the 
Joint Electronic Health Record, iEHR? If not, has this attributed to 
the delay of iEHR? What steps are being taken to ensure a seamless 
transition between current contractors and new contractor?
    Secretary Panetta. VistA was developed by the VA clinical 
community, rather than contractors. The Composite Health Care System 
(CHCS), DOD's predecessor system, was developed using the Veteran 
Administration's Decentralized Hospital Computer Program (DHCP) as the 
foundation and modifying modules when possible to meet the requirements 
established by DOD. Additionally, CHCS has a long history and does not 
have one specific contractor that can be singled out as responsible for 
its development.
    The current contractor support to iEHR was not involved in the 
support provided to DOD and VA legacy electronic health record (EHR) 
systems; however, this has not resulted in a delay. The DOD/VA IPO's 
government staff has extensive technical knowledge of respective legacy 
systems and/or reach back to the Departments for expertise as needed.
    Mr. Garamendi. In your testimony, you stated that the iEHR is 
expected to be fully operational no later than 2017. Considering the 
immediate need for this system, will additional funding enable you to 
provide the system sooner? If not, what steps can be taken to improve 
your current schedule?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. SCHILLING
    Mr. Schilling. From casework, I've heard that veterans who have 
been treated for PTSD have been overwhelmed by doctors and that they 
have not made things better, but worse. In fact in one case a patient, 
who later committed suicide, was over-medicated by multiple doctors who 
did not check with each other, per his father. Is it common practice to 
have multiple doctors for one patient with PTSD? Can this be fixed by 
this new system?
    Secretary Panetta. It is not common practice for one patient to be 
treated for the sole condition of PTSD at the same time by multiple 
doctors. However, conditions that lead to or co-occur with PTSD (e.g. 
poly-trauma) may involve multiple providers and teams of care. The 
current system implemented by the DOD has many safeguards and risk 
mitigation strategies in place to prevent this type of incident from 
occurring--especially in regard to the prescription of pharmaceuticals. 
For example:
    <bullet>  The Tricare Policy Manual mandates that coordination 
between various medication providers must be evidenced in the treatment 
plan.
    <bullet>  Poly-pharmacy in the use of opiate medications has been 
reduced in Warrior Transition Units, and other clinical settings owing 
to leadership and case management interventions.
    <bullet>  The Army has implemented the Sole Provider Program to 
help identify patients who exhibit drug-seeking behavior by conducting 
periodic reviews of all prescriptions for controlled substances, 
identifying suspicious drug usage patterns.
    <bullet>  Clinic procedures limit the number of pills dispensed to 
potentially high-risk patients.
    <bullet>  Warning flags appear in electronic drug dispensing menus 
which require physician attention.
    <bullet>  Military Treatment Facilities (MTFs) have prescription 
restriction programs, and real-time monitoring and reconciliation of 
prescriptions dispensed through MTFs, mail-order, and network 
pharmacies.
    <bullet>  The Department of Defense (DOD) PharmacoEconomic Center 
(PEC) provides a single, comprehensive patient drug profile for DOD 
beneficiaries across the Military Health System, allowing monitoring 
and surveillance of drug contraindications or usage patterns of 
concern.
    <bullet>  When a prescription is filled within the U.S. Military 
Health System, an online system, the Pharmacy Data Transaction System, 
automatically checks the prescription against the patient's medication 
history before the drug is dispensed. This process includes retail, 
mail and military treatment facility pharmacies and has helped avoid 
more than 171,000 potentially life-threatening drug interactions.
    <bullet>  Pharmacists throughout the Military Health System provide 
consumers with a medication information sheet on each new and renewed 
prescription. DOD evaluates for drug-drug interactions on every 
prescription prescribed by mail order, a retail pharmacy or MTF, 
ensuring our patients receive medication that is safe and medically 
indicated.
    Mr. Schilling. From casework, I've heard that veterans who have 
been treated for PTSD have been overwhelmed by doctors and that they 
have not made things better, but worse. In fact in one case a patient, 
who later committed suicide, was over-medicated by multiple doctors who 
did not check with each other, per his father. Is it common practice to 
have multiple doctors for one patient with PTSD? Can this be fixed by 
this new system?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BARBER
    Mr. Barber. Our armed service members are some of the best trained, 
most disciplined, and most ambitious men and women in our country. How 
can the Department of Defense work with our other agencies, including 
the Department of Labor, to better educate employers and departing 
service members about how military skill sets translate to civilian 
skill sets? How Congress can be more helpful in conveying the skills 
and attribute of our veterans?
    Secretary Panetta. The Department very much appreciates Congress' 
actions to improve the employability of our Veterans. Sections 558 and 
551 of the National Defense Authorization Act for Fiscal Year 2012 are 
assisting us in identifying critical training gaps and in beginning 
skills training in sufficient time to facilitate a smooth transition to 
civilian life. Authorities in the recently enacted Veterans Skills to 
Jobs Act, Public Law 112-147 (H.R. 4155) will help with several aspects 
of credentialing and licensing of Service members. These recent 
Congressional initiatives are essential in the transition of our 
Service members from Active Duty to civilian life.
    The Department is working very closely with our federal partners to 
better educate employers about translating military to civilian skills. 
In May, we established the DOD Credentialing and Licensing Task Force 
led by the Deputy Assistant Secretary of Defense for Readiness to 
oversee all credentialing and licensing initiatives within the 
Department. Our Federal partners from the Departments of Labor, 
Veterans Affairs, Education and Transportation are represented on the 
Task Force and are working with us to address the unique challenges 
faced by Service members as they transition to civilian life. The 
Department is also working with the National Council of State 
Legislators, the American Legion, and several state governments to 
facilitate civilian recognition of military skills.
    Education and outreach by DOD and other Federal agencies are 
critical to helping employers better understand military skills. 
Meeting with employers on a regular, ongoing basis to address specific 
issues, such as promoting the quality and transferability of military 
education, training and experience, is important and may include 
translation of military technical and leadership skills using a 
nationally recognized badging system. Also, educating employers about 
Service members unique needs in regard to domicile/residency 
requirements, recognizing national certifications or other national 
exams, and deployment experiences and why these are not detriments to 
hiring Veterans would also be helpful.
    Civilian companies can become more involved in the hiring process 
by being encouraged to participate in job fairs where military members 
can interview with their resumes and military records in hand.
    DOD and other Federal agencies can also help business leaders 
better understand how well military members perform using recently 
added title 10 authorities that deal with apprenticeship and transition 
training opportunities for separating Service members. This may involve 
pilots with industry to hire military members at mid to senior levels 
on a trial basis and not merely focusing on the unemployed or 
sponsoring them at entry levels.
    Mr. Barber. As service members return from deployment and 
reintegrate, they experience a period of readjustment. Growing up in a 
military family, I know that their families, too, go through an often 
difficult transition. What are some of the efforts that DOD is working 
on to engage military families in the transition process and encourage 
spouses to take advantage of transition services?
    Secretary Panetta. The Department of Defense provides a number of 
services that support the transition of Service members and their 
families throughout the military life cycle. The return of a Service 
member from deployment is understandably an adjustment for the military 
family and calls for targeted efforts.
    Each Service branch sponsors information and support programs for 
Service members and their families and begin with pre-deployment 
preparation, like family care plans, and include deployed family events 
that take place during the Service member's deployment. Current 
programs also consist of reintegration briefings sponsored by the 
installation Family Support, Community Support or Readiness center. 
These reintegration briefings include family members and cover topics 
like preparing for a reunion, updating administrative, legal, 
financial, and employment affairs, and adjustments to be experienced by 
a Service member, spouse, and children. For Guard and Reserve 
personnel, Yellow Ribbon Reintegration events and the Joint Family 
Support Assistance Program are integral to family support.
    These centers also provide resources in the form of DVDs, books and 
activities for children of Service members to assist with dealing with 
the absence and return of the deployed family member.
    The Family Support Centers and Chapels of most military 
installations also offer Military Family Life Counselors (MFLCs), 
marriage counseling and communication classes, free childcare and or 
discounted activities for families.
    Of course, the military lifecycle includes the transition into 
civilian life. The re-designed Transition Assistance Program (TAP), 
known as Goals, Plans, Success (GPS), prepares separating Service 
members and their families by building career readiness skills and 
self-confidence necessary to assist in successful reentry into the 
civilian work force or student life. Spouses are encouraged to 
participate in transition planning and curriculum to the maximum extent 
possible alongside their spouses or attend on their own.
    The TAP GPS core curriculum provides information and training on 
financial management, teaches Service members how to translate their 
individual military skills into civilian skills, provides a detailed 
overview of potential veteran's benefits, and employment tools and 
resources to aid in finding a career. The TAP GPS Career Track modules 
are provided based on an individual's career choices and needs be those 
higher education, technical training, or entrepreneurial aspirations. 
Transition preparation cannot be a one size fits all approach and, just 
as our military families don't fit one mold, the new TAP GPS can be 
customized to meet their family needs.
    Service members must also create an Individual Transition Plan 
(ITP), a holistic tool that leads Service members through thoughtful 
consideration of family issues like impact of the career change upon 
children, elderly parents, and spouses. The changing financial 
situation, due to separation from military careers, is specifically 
highlighted and planned. Social support networks must be considered. 
The ITP is competed in private during TAP GPS modules so that family 
members can participate in its development at home and in classes.
    Utilization of Transition GPS will improve the Service members' 
effectiveness and their ability to be ``career ready.'' By creating an 
ITP that starts early and considers the spouse, children and family 
needs, the family can also be better prepared.
    Mr. Barber. Post Traumatic Stress Disorder and Traumatic Brain 
Injury have been called the signature injuries of the current wars 
abroad, but they can be silent injuries that often go undiagnosed or 
come with a stigma that cause them to go unreported. What steps is the 
Department of Defense taking to identify these service members and 
ensure their complete and successful transition into civilian life?
    Secretary Panetta. The Department of Defense (DOD) has pre- and 
post-deployment screening for symptoms of TBI, mental health issues and 
substance use and abuse (which can signal unidentified problems). The 
post-deployment screening occurs immediately following a deployment and 
is repeated at 3, 6 and 12 month intervals thereafter. All deployment 
health assessments incorporate both self-report questions for Service 
members and specific questions that guide healthcare providers in 
conducting mental health assessments for suicide risk, TBI, PTSD, 
depression, and alcohol use.
    National Guard and Reserve units partner with VA to conduct Yellow 
Ribbon events 90 days post-deployment, increasing awareness of VA 
benefits, programs and services. Military Services' demobilization 
events provide a setting for post-deployment National Guard and 
Reservist members to meet with VA staff to complete enrollment forms. 
As well, referral recommendations for VA behavioral health care are 
generated for National Guard and Reserve members during the 3-month 
post deployment assessment.
    For those who are injured and/or transitioning out of active duty 
status, the DOD ensures proper treatment and successful transition to 
civilian life through care coordination and transition assistance 
services. This continuum of evaluation, assessment, treatment, and 
coordination and transition services is carried out throughout the 
lifecycle of a Service member's tenure.
    In 2011, DOD published ``Continuity of Behavioral Health Care for 
Transferring and Transitioning Service Members,'' which prescribes 
guidelines that ensure continuity of care for Service members 
transferring to a new duty station or transitioning out of the Service. 
This policy directs the Military Services to develop policies for 
transfer of behavioral health care from military to civilian providers, 
including VA providers. When a separating Service member provides 
consent for sharing information with a follow-on behavioral health 
provider, DOD shares all relevant clinical information. This includes 
diagnoses, medications, treatment history including suicide risk, test 
results, treatment plans and prognosis. Service members' treatment 
record information is available to VA providers via the Bidirectional 
Health Information Exchange. DOD's inTransition program provides a 
telephonic coach for transitioning Service members with behavioral 
health issues, whether that is in the VA health care system, a Military 
Treatment Facility, TRICARE, or the community. The inTransition program 
has opened thousands of coaching cases since its inception in February 
2010. The acceptance rate for service members referred to the program 
since inception exceeds 95%.
    For those who have suffered a traumatic brain injury, The Defense 
Veterans Brain Injury Center (DVBIC) Regional Care Coordinator (RCC) 
program provides a nationwide care coordination network to support 
Service members with TBI. This program facilitates transition from the 
DOD to VA care by working with VA case management teams. For Service 
members with more severe brain injuries, a DOD-VA Polytrauma Telehealth 
Network connects the current treating team with the accepting treating 
team in the VA. This facilitates transfer planning, affords families an 
opportunity to meet receiving care teams and ensures that medical 
records are transferred between facilities. DOD and VA are working 
together on a Congressionally-mandated five year pilot program which 
assesses the effectiveness of providing assisted living services to 
Service members and Veterans with TBI who require ongoing care in the 
community. VA collaborated with the DVBIC on a family caregiver panel 
to develop a uniform training curriculum for family members in 
providing care and assistance.
    TRICARE Regional Offices have VA Liaisons who serve as 
intermediaries between VA facilities and the TRICARE regional 
contractors. VA Liaisons actively assist with authorizations and 
claims, and TRICARE contractors hold monthly calls with the VA's 
Medical Sharing Office to review the cases of active duty Service 
members who are receiving joint VA/DOD care.
    The VA Liaison for Healthcare, a social worker or nurse 
strategically placed at an MTF with recovering service members 
returning from Afghanistan, is another asset. 33 Liaisons for 
Healthcare are stationed at 18 MTFs, helping transition ill and injured 
Service members from DOD to the VA system of care. Thousands of health 
care transitions have been coordinated.
    The DOD-VA Integrated Mental Health Strategy includes actions 
specifically focused on transition and continuity of behavioral health 
care. Data are being shared between the Departments on rates of follow-
up in at VA Medical Centers and Vet Centers for Service members 
referred to VA for a behavioral health issue identified during the 
PDHRA or the Post Deployment Health Assessment (PDHA). These data show 
that among Service members whose behavioral health follow-up is 
recommended during the PDHRA, 43% have a behavioral health encounter at 
a VA facility within 90 days.
    DOD will continue to work with VA in implementation of our policies 
regarding transition and continuity of behavioral health and TBI care. 
We will ensure our providers address transition of behavioral health 
care for wounded warriors to VA and other civilian providers, and will 
continue to manage the important issues of suicide risk and 
occupational impairment and suffering from PTSD.
    Mr. Barber. What is the Department of Defense doing to ensure close 
access to health care services for service members who are stationed in 
rural areas? Does DOD contract with exiting, private sector behavioral 
health professionals and agencies to provide health care services close 
to where service members are stationed?
    Secretary Panetta. Active duty members, including activated 
National Guard/Reserve members, who are stationed more than 50 miles or 
more than one hours drive from a military treatment facility are 
enrolled in TRICARE Prime Remote (TPR) to ensure most care is provided 
in their local area. Members may select a primary care manager (PCM) 
from the TRICARE network, or if one is not available, can select any 
TRICARE-authorized, non-network provider as their PCM. The PCM refers 
members to TRICARE network specialists in the local area if available 
(or TRICARE-authorized, non-network specialists), and coordinates with 
the regional contractor for authorizations and claims.
    Mr. Barber. My district in Southern Arizona is home to more than 
10,000 veterans. I appreciate the attention that VA and DOD are giving 
to this issue of transition assistance--an issue of critical importance 
to the service men and women I represent and their families. I hear 
from service members frequently about the long lag time between the 
time they file their VA claims at time of discharge, and the time the 
claim is adjudicated. They frequently wait 6 months or more before they 
receive compensation from the VA. For a service member transitioning 
from Active Duty and looking for a job, that VA check could be their 
only resource for buying food and paying rent. In addition to providing 
additional transitional assistance to our service members, what more 
can be done to fast track basic transition services and reduce the wait 
time?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
    Mr. Barber. Unemployment among our veterans has reached historic 
proportions. Nearly 780,000 veterans are unemployed, and as the numbers 
of troops in the Middle East are reduced, about 100,000 more vets will 
be looking for jobs. According to the Bureau of Labor Statistics the 
average unemployment rate in the U.S. in 2011 was 8.9 percent, but the 
rate of unemployment among anyone who was a member of the U.S. Armed 
Services since September 2001 was 12.1 percent. As part of the new 
Veterans Employment Initiative Task Force, what specifically will be 
done to eliminate this disparity in current unemployment levels between 
veterans and the general population? How will the Department of 
Veterans Affairs work to accomplish that goal?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
    Mr. Barber. Post Traumatic Stress Disorder and Traumatic Brain 
Injury have been called the signature injuries of the current wars 
abroad, but they can be silent injuries that often go undiagnosed or 
come with a stigma that cause them to go unreported. What steps is the 
Department of Veterans Affairs taking to identify these service members 
and ensure their complete and successful transition into civilian life?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]
    Mr. Barber. What is the Department of Veterans Affairs doing to 
ensure close access to health care services for veterans who live in 
rural areas far away from VA centers and clinics? Is the VA authorizing 
VA centers to contract with exiting, private sector behavioral health 
professionals and agencies to provide services close to where veterans 
live?
    Secretary Shinseki. [The information referred to was not available 
at the time of printing.]

                                  <all>

</pre></body></html>
